<html>
<title> - OVERSIGHT OF THE 1999 NATIONAL DRUG CONTROL STRATEGY</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]




          OVERSIGHT OF THE 1999 NATIONAL DRUG CONTROL STRATEGY

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON CRIMINAL JUSTICE,
                    DRUG POLICY, AND HUMAN RESOURCES

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 25, 1999

                               __________

                           Serial No. 106-82

                               __________

       Printed for the use of the Committee on Government Reform


     Available via the World Wide Web: http://www.house.gov/reform

                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
62-537 CC                   WASHINGTON : 2000




                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       ROBERT E. WISE, Jr., West Virginia
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
STEPHEN HORN, California             PAUL E. KANJORSKI, Pennsylvania
JOHN L. MICA, Florida                GARY A. CONDIT, California
THOMAS M. DAVIS, Virginia            PATSY T. MINK, Hawaii
DAVID M. McINTOSH, Indiana           CAROLYN B. MALONEY, New York
MARK E. SOUDER, Indiana              ELEANOR HOLMES NORTON, Washington, 
JOE SCARBOROUGH, Florida                 DC
STEVEN C. LaTOURETTE, Ohio           CHAKA FATTAH, Pennsylvania
MARSHALL ``MARK'' SANFORD, South     ELIJAH E. CUMMINGS, Maryland
    Carolina                         DENNIS J. KUCINICH, Ohio
BOB BARR, Georgia                    ROD R. BLAGOJEVICH, Illinois
DAN MILLER, Florida                  DANNY K. DAVIS, Illinois
ASA HUTCHINSON, Arkansas             JOHN F. TIERNEY, Massachusetts
LEE TERRY, Nebraska                  JIM TURNER, Texas
JUDY BIGGERT, Illinois               THOMAS H. ALLEN, Maine
GREG WALDEN, Oregon                  HAROLD E. FORD, Jr., Tennessee
DOUG OSE, California                             ------
PAUL RYAN, Wisconsin                 BERNARD SANDERS, Vermont 
JOHN T. DOOLITTLE, California            (Independent)
HELEN CHENOWETH, Idaho


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
           David A. Kass, Deputy Counsel and Parliamentarian
                      Carla J. Martin, Chief Clerk
                 Phil Schiliro, Minority Staff Director
                                 ------                                

   Subcommittee on Criminal Justice, Drug Policy, and Human Resources

                    JOHN L. MICA, Florida, Chairman
BOB BARR, Georgia                    PATSY T. MINK, Hawaii
BENJAMIN A. GILMAN, New York         EDOLPHUS TOWNS, New York
CHRISTOPHER SHAYS, Connecticut       ELIJAH E. CUMMINGS, Maryland
ILEANA ROS-LEHTINEN, Florida         DENNIS J. KUCINICH, Ohio
MARK E. SOUDER, Indiana              ROD R. BLAGOJEVICH, Illinois
STEVEN C. LaTOURETTE, Ohio           JOHN F. TIERNEY, Massachusetts
ASA HUTCHINSON, Arkansas             JIM TURNER, Texas
DOUG OSE, California

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
          Robert B. Charles, Staff Director and Chief Counsel
              Margaret Hemenway, Professional Staff Member
               Sean Littlefied, Professional Staff Member
                          Amy Davenport, Clerk
                    Micheal Yeager, Minority Counsel




                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on February 25, 1999................................     1
Statement of:
    McCaffrey, General Barry R., Director, Office of National 
      Drug Control Policy........................................    26
Letters, statements, et cetera, submitted for the record by:
    Gilman, Hon. Benjamin A., a Representative in Congress from 
      the State of New York, prepared statement of...............   118
    Kucinich, Hon. Dennis J., a Representative in Congress from 
      the State of Ohio:
        Prepared statement of....................................     7
        Prepared statement of the family of Detective Robert 
          Clark II...............................................     3
    McCaffrey, General Barry R., Director, Office of National 
      Drug Control Policy, prepared statement of.................    32
    Mica, Hon. John L., a Representative in Congress from the 
      State of Florida:
        Chart on counterdrug funding statistics..................    25
        Prepared statement of....................................    10
    Mink, Hon. Patsy T., a Representative in Congress from the 
      State of Hawaii, prepared statement of.....................    17
    Ose, Hon. Doug, a Representative in Congress from the State 
      of California, prepared statement of.......................    23

 
          OVERSIGHT OF THE 1999 NATIONAL DRUG CONTROL STRATEGY

                              ----------                              


                      THURSDAY, FEBRUARY 25, 1999

                  House of Representatives,
Subcommittee on Criminal Justice, Drug Policy, and 
                                   Human Resources,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:30 a.m., in 
room 2157, Rayburn House Office Building, Hon. John L. Mica 
(chairman of the subcommittee) presiding.
    Present: Representatives Mica, Barr, Souder, Hutchinson, 
Ose, Mink, Cummings, and Kucinich.
    Staff present: Robert Charles, staff director/chief 
counsel; Margaret Hemenway and Sean Littlefield, professional 
staff members; Amy Davenport, clerk; Michael Yeager, minority 
counsel; Jean Gosa, minority staff assistant; and Earley Green, 
minority staff assistant.
    Mr. Mica. Good morning. I'd like to call this meeting of 
the Criminal Justice, Drug Policy, and Human Resources 
Subcommittee to order.
    Our business today is to hear from the Director of the 
National Office of Drug Control Policy.
    Before I get into my opening statement and before the 
regular order of business, I am pleased to recognize the 
gentleman from Ohio, Mr. Kucinich, for a special introduction 
to our panel.
    Mr. Kucinich. Thank you very much, Mr. Chairman. I want to 
express my appreciation to you for giving me this opportunity.
    The topic of this hearing, of course, is so serious, and 
the chairman is to be congratulated for his focus on this.
    I know how these issues become local. In Cleveland, OH, a 
police officer was killed in the line of duty while attempting 
to execute a drug-related arrest. The officer, Robert Clark, 
was a decorated police officer, a husband, and father of three. 
As part of the street crimes unit, he routinely participated in 
coordinated antidrug operations. He was shot during a drug 
arrest by an individual that had an extensive criminal record 
in several States, an individual that seemed to have slipped 
through the criminal justice system, but may not have had 
greater coordination and information been made available to 
local law enforcement professionals.
    Mr. Chairman, Officer Clark's sister, Mary, and her husband 
John, who is with the U.S. Custom's Office, are here today. I 
would ask them to stand so that I can recognize them.
    Stand up, please.
    And I would also ask for unanimous consent to submit a 
written statement from them into the record.
    Mr. Mica. Without objection, so ordered.
    [The prepared statement of the family of Detective Robert 
Clark II follows:]
[GRAPHIC] [TIFF OMITTED] T2537.001

[GRAPHIC] [TIFF OMITTED] T2537.002

[GRAPHIC] [TIFF OMITTED] T2537.003

    Mr. Mica. We are, indeed, honored to have you with us and 
appreciate the tremendous sacrifice your family has paid in 
this terrible crisis that our Nation and law enforcement 
officials face in executing their responsibility under the laws 
of this country.
    So, without objection, we are pleased to recognize you 
today, and also make that part of the record.
    Mr. Kucinich. I would appreciate that, Mr. Chairman. And, 
if I could ask the indulgence of the Chair, if the Chair and 
those in the audience could join in a round of applause in 
appreciation for the sacrifice of the family.
    [Applause.]
    Mr. Kucinich. Thank you, Mr. Chairman.
    [The prepared statement of Hon. Dennis J. Kucinich 
follows:]
[GRAPHIC] [TIFF OMITTED] T2537.004

[GRAPHIC] [TIFF OMITTED] T2537.005

    Mr. Mica. Thank you so much. It does bring to home the 
reason that we are here today trying to find solutions so that 
a tragedy such as that we have heard about with this family can 
be avoided in the future.
    We had a vote, and right now have the swearing in of a 
Member, but we are going to go ahead and proceed with our 
regular order of business this morning, which is, again, 
testimony from our Director of the Office of National Drug 
Control Policy.
    I am going to start with an opening statement.
    I will ask unanimous consent that it be submitted for the 
record.
    Without objection, so ordered.
    [The prepared statement of Hon. John L. Mica follows:]
    [GRAPHIC] [TIFF OMITTED] T2537.006
    
    [GRAPHIC] [TIFF OMITTED] T2537.007
    
    Mr. Mica. Let me just try to spend a few minutes, as our 
members join us, to express some of my concerns outside that 
official statement about my review of the proposed drug 
strategy, the 1999 strategy that has been submitted, and some 
of the accompanying documents. In light of a trip that the 
ranking member, myself, Mr. Souder, and some of the 
subcommittee just took, I would like to look, just for a few 
minutes, at an overview of where we are and what I believe are 
some of the shortcomings of this proposal before us.
    First of all, I want to publicly acknowledge the tremendous 
job that General McCaffrey has done. I think he has had a very 
difficult assignment. I think he has handled himself in a 
manner to be praised by this subcommittee, by the Congress, and 
by the administration.
    That being said, I do have some so-called ``bones'' to pick 
with the proposal before us, and I am sure he'll have an 
opportunity to respond.
    One of my major concerns is that we look at the cost-
effectiveness of our approach to this problem. We are now 
spending, this past year, $17.9 billion taxpayer dollars, not 
to mention almost a quarter of a trillion dollars in cost, just 
dollars and cents, to the taxpayers on substance abuse and drug 
expenses that our country incurs every year.
    So you have to look at the most cost-effective approach. 
Maybe some of these items are more on our minds, since we have 
just returned from some of the major drug-producing countries, 
but it doesn't take a whole lot of education or information to 
figure out exactly where the core of the drugs are coming from. 
By the estimates of this report, we have got 60 percent, maybe 
as much as 70 percent of the hard drugs coming through Mexico, 
and most of the cocaine and heroin is now produced in Colombia.
    We learned through our trip that Colombia has now become 
the major source of cocaine production, with the tremendous 
efforts that have been made by President Fujimora of Peru and 
by the President of Bolivia, Hugo Bonsar. So we know that drugs 
are being produced--the hard drugs, heroin and cocaine, in 
Colombia.
    We still have the problem of getting the resources--
helicopters, ammunition, eradication programs--underway in 
those countries.
    We know that 100 percent of the cocaine is being produced 
in Bolivia, Colombia, and Peru. Now 50 percent has switched 
over to Colombia. We know that heroin is trafficking up through 
Mexico, and that's 60 to 70 percent of it.
    I point this out because the strategy does not appear to me 
to be focused sufficiently to deal with these source countries. 
Now, in Peru and Bolivia a few million dollars extra could make 
a big difference. They have shown some dramatic intentions and 
actions to eliminate, not just cut back, but potentially 
eliminate production in those two countries.
    So it seems that a lot of our resources should be to stop 
drugs at their source. What disturbs me about the budget and 
the strategy is that it does not seem to focus enough attention 
there. In fact, I think over last year's actual total dollar 
expenditure we see decreases.
    So I have some serious concerns that we are putting a few 
dollars where they can do the most good, in Bolivia and Peru, 
and also in Colombia.
    What is even more disturbing is the situation with Mexico, 
where most of the drugs are transiting. Today's newspapers make 
me even more concerned, General McCaffrey. We had the testimony 
yesterday of Tom Constantine, the head of our Drug Enforcement 
Agency, and he testified in the Senate. In my lifetime, I have 
never witnessed any group of criminals that has had such a 
terrible impact on so many individuals and communities in our 
Nation. Mr. Constantine said they have infiltrated cities and 
towns around the United States, visiting upon these places 
addiction, misery, increased criminal activities, and increased 
homicide.
    There is no doubt that those individuals running these 
organized crime, drug trafficking syndicates today are 
responsible for degrading the quality of life, not only in the 
towns along the southwest border of the United States, but 
also, increasingly, cities in middle America. That disturbs me 
greatly.
    The headlines are, ``Drug Corruption in Mexico Called 
Unparalleled,'' again, by our Chief Drug Enforcement Officer of 
our Nation.
    Further, what concerns me is a lack of organization that 
the ranking member and I observed, first in Panama, which has 
been our major reconnaissance center. Today is almost the end 
of February. Monday is the first of March. We have March and 
April. It does not appear that we have any coherent plans for 
relocating those surveillance and incredible volume of 
equipment that now is in Panama. It seems disorganized, at 
best. It looks like we got out-negotiated by the Panamanians, 
and we are turning over $10 billion in assets, and you have $73 
million to relocate in your budget, which, again, is probably 
an expensive policy failure by the administration.
    So I am very concerned about what we are going to do. We do 
not have anything in place. Our folks told us that our troops 
may be living in tents or in temporary quarters if and when an 
agreement is reached for relocating them. This also opens a 
huge gap in our reconnaissance, surveillance, and interdiction 
activities.
    We then went to the southwest border and met with border 
officials and some of our ATF folks there. We were basically 
told, Sir--and correct me, Mrs. Mink, if I am wrong--that there 
is no one in charge of the southwest border program, that it is 
greatly fractionalized, that there is no direction and no or, 
at best, little coordination.
    Certainly, the southwest border, given the chart that I 
have here, has to be one of the major entry points. The border 
patrol told us--and correct me again if I am wrong, anyone out 
on the panel--that we have not restarted our efforts of having 
the reserve and military do proper surveillance. They said they 
can detect most folks coming across the border through sensors. 
The local border patrol folks have requested, in fact, that 
that be reinstituted, but nothing in Washington has been done 
to, again, provide the sensors at the border which are so 
important.
    Then, I know that you and the administration have been 
strong advocates, and the Congress, Mr. Portman, strong 
advocates of education and prevention and our Drug-Free 
Communities Act that passed the Congress. I find that we do not 
have adequate resources in this budget to even fulfill the 
minimal needs.
    Mr. Portman told me last evening it took 16 months to 
appoint board members, and most of it was a fight. The delay 
was a fight between HHS and DOJ in trying to decide who would 
run the program.
    So I have some very serious concerns about what is in the 
proposal, about what I read in the newspaper today, about the 
possible certification by the administration of Mexico in the 
next couple of days, and that we do not have coordination and 
action on a couple of these fronts.
    Now, I do not mean that all in a critical vein, Mr. 
Director. I am wondering if maybe we need to give you 
additional authority. We certainly can do a better job from our 
perspective in applying the financial resources where they need 
to go to get the job we think needs to get done.
    Those are my candid, open remarks. We have learned from the 
past that if we do not put the proper emphasis on these areas--
multi-faceted eradication, source country programs, and 
international programs on interdiction, education, treatment, 
and prevention--that it does not work. And there is no question 
that it does not work if we do not have that emphasis.
    So those are some of my concerns today. I think we have 
most of the members of the panel back. I apologize for taking 
time.
    Again, I do not give that totally in a critical vein, but 
hopefully in a constructive vein that we can find answers to 
some of the problems as we move along here.
    With those comments, I am pleased to yield to the ranking 
member, the distinguished lady from Hawaii, who also 
accompanied us on our first initial visit. We are anxious to 
hear her remarks. I recognize her.
    Mrs. Mink. Thank you, Mr. Chairman, and welcome to you, 
General McCaffrey, to this hearing.
    I occupy a new position as ranking member of this 
subcommittee, and the entire subject area, although in many 
ways is something that I have been concerned with my entire 
political life, nonetheless, there is so much in this whole 
area that requires concentrated, detailed attention in order to 
understand all the inner workings and ramifications of the 
problem. It is an immense task that you have assumed, and I 
want to take this opportunity first off to commend you and your 
staff for the exceptional work that you have done since this 
organization was established.
    There are so many fronts to this issue, and perhaps coming 
onto it initially I would have underscored the particular 
attention we have to pay to our young people, who are the real 
victims of this crisis, and organize efforts to educate them 
and their parents and their families about the dreadful 
consequences of becoming a user and an addict; the cost to the 
family, as well as to the community and to society and the 
Nation, as a whole, and so we concentrate our efforts.
    I serve on the Education Committee, and we concentrated our 
efforts in the educational aspects and the prevention aspects, 
and then, when you look at the health area, you know that there 
is a whole arena of health services and treatment, and some of 
the debate that goes along with those issues.
    Then, traveling with this subcommittee to Central and South 
America, you understand that much of it is outside our realm of 
control. These source countries have total responsibility to do 
the things that are necessary to curb the source, to interdict 
the smugglers, and to do everything they can to prevent the 
traffic into our country. To some extent we are dependent upon 
their will and their determination to get at the source 
question and all the crime and other kinds of corruption that 
occur in societies that are governed by the law of drugs.
    We know significant achievements in some of these countries 
that we want to pay special tribute to for their new efforts--
Peru, Bolivia, and Colombia, in particular--and all of us are 
concerned about the developments in Mexico.
    But, in looking at this overall picture about our drug 
strategy, what comes to my mind as something that I would have 
always considered self-evident was that we knew exactly what 
was happening within the United States in terms of where the 
drug syndicates were located, who ran them, who was in charge 
in what city, with respect to the wholesale activities of these 
drugs, and managing and controlling the flow in and out of our 
cities and our communities.
    I have looked over a number of the reports and descriptions 
of the various functions of agencies, and I am not really quite 
sure that I have a grasp of what our efforts, in terms of our 
own law enforcement, are within this country.
    That is an area I would like to pay special attention to as 
we begin our inquiry on the scope and strategy for the 
eradication of the drug abuse in our country.
    I would like to know, frankly, where these people are and 
what their names are. I would like to put a face to these 
names. I would like to know where they are located, to what 
extent the intelligence within this country can identify them, 
know their operations, and, if so, why they have not been 
arrested and put in prison.
    That's the short view of my perspective of one small corner 
of this immense subject area.
    I would like to share those concerns with you, General 
McCaffrey, and hope that in the ensuing months we have an 
opportunity to engage in discussion about this far-reaching 
activity that those concerns of our enforcement part of this 
huge operation are fully understood, because, to a large 
extent, I think my community, my District that I represent has 
sort of given up on this thing. They say, ``Well, what can you 
do about it? It is there.'' We do not see many results in terms 
of the whole traffic.
    I am alarmed because my State is listed here as one of the 
major growers of marijuana, which is the leading illicit drug 
trafficking in this country, and I want to know who these 
people are that are bringing it in or growing it or picking it 
up and shipping it and where it goes and who these people are 
throughout the country.
    I think that most families want to have that information--
the knowledge, the belief that everything is being done that 
could be
done to help engage this Nation in this very, very critical 
problem for the sake of our children and our families.
    Thank you, Mr. Chairman. I ask unanimous consent that my 
statement be entered into the record.
    Mr. Mica. Without objection, so ordered. Thank you.
    [The prepared statement of Hon. Patsy T. Mink follows:]
    [GRAPHIC] [TIFF OMITTED] T2537.008
    
    [GRAPHIC] [TIFF OMITTED] T2537.009
    
    [GRAPHIC] [TIFF OMITTED] T2537.010
    
    [GRAPHIC] [TIFF OMITTED] T2537.011
    
    Mr. Mica. I would like to recognize now the vice chairman 
of our subcommittee, the gentleman from Georgia, Mr. Barr.
    Mr. Barr. Thank you, Mr. Chairman, and, General McCaffrey, 
it is always a pleasure and an honor to have you here. You have 
always and continue to distinguish yourself as one of our true 
leaders in the antidrug movement, and I very much appreciate 
that, as do the citizens of the 7th District of Georgia that I 
represent.
    I think primarily, through no fault of your own but through 
some of the policy decisions that the administration makes, the 
effectiveness of your personal efforts and those of the people 
that serve with you, and, in particular, the brave men and 
women of the DEA have not enjoyed as much success as I know 
they would like and as you would like, and as, certainly, we up 
here would like to see, problems with regard to Mexico being 
one of the foremost problems, an effort by some, I think, in 
the administration not to be quite as strong on the marijuana 
legalization effort, as I know you are, and on needle exchange 
programs.
    I guess what I am saying is I think we would be a lot 
better off if you were President and not just head of ONDCP, 
because then you would be in a position to make the broad 
policy decisions and dictate many of the steps that we would 
like to see and that I know you, personally, would like to see.
    But I do look forward to the questions and answers today in 
your statement, and you are always very, very frank and 
forthcoming with us, and I appreciate that, and I know you 
appreciate where we are coming from in terms of sometimes some 
very tough questions.
    Again, it is always an honor to be with you and with the 
brave men and women that you represent in the forefront of the 
war on drugs.
    We had, through one of our subcommittees, a very 
interesting discussion yesterday with Mayor Guiliani of New 
York, and I may have a question or two to ask you, comments on 
some of the positions that he has taken. I think he has really 
done many of the things that we would like to see done. Of 
course, he is the chief executive for New York City and can 
make those decisions and dictate that they be carried out.
    But, again, it is a pleasure to have you here. I look 
forward to the testimony and to the questions and answers, and, 
again, look forward to working with you in fighting the war 
against mind-altering drugs in the coming Congress.
    Thank you, Mr. Chairman.
    Mr. Mica. I thank you and now recognize the gentleman from 
Indiana, Mr. Souder.
    Mr. Souder. I just want to thank General McCaffrey for 
being here and look forward to getting into the questions and 
comments.
    Mr. Mica. Mr. Hutchinson, the gentleman from Arkansas, you 
are recognized.
    Mr. Hutchinson. Thank you, Mr. Chairman.
    I will yield for my opening statement.
    I have started reviewing the report, General McCaffrey, and 
I look forward to your testimony.
    I will take the opportunity just to make one remark. I 
believe in the importance of educating teenagers about tobacco 
use and the dangers of that. I always have believed, though, 
that we should distinguish the case of illegal drugs, the 
narcotics, the methamphetamine--the message on that, you know, 
from the antidrug message on tobacco.
    Sometimes I think we just sort of meld all of that 
together, and so I just wanted to express that comment to you. 
I have raised four teenagers, and I think you have got to 
distinguish that message out there. Both are important, but I 
hope that we can really put the focus on the illegal drugs--I 
think that is the greatest danger in our country--and then we 
can have a separate message for the antismoking campaign.
    I look forward to your testimony, General McCaffrey, and, 
likewise, I thank you for your hard work for our country.
    Mr. Mica. The gentleman from California, Mr. Ose, you are 
recognized.
    Mr. Ose. Thank you, Mr. Chairman. Thank you for this 
hearing and the opportunity to go with you this past week. I am 
very interested in hearing what General McCaffrey has to offer 
here this morning.
    Mr. Chairman, I am glad to see that the Federal funding for 
the war on drugs has increased for fiscal year 2000, however 
nominally or however much we might think it needs to be more.
    The questions that I have deal with how can the Federal 
Government assist localities and communities in reaching their 
drug prevention goals. It is the details of this that I am 
looking forward to hearing from General McCaffrey about this 
morning.
    I also want to comment on a statement that General 
McCaffrey made to the Community Anti-Drug Coalition's 
newsletter this past winter. The General commented that the 
responsibility of combating minor use of drugs, alcohol, and 
tobacco falls on communities and coalitions and not on the 
local police chief and sheriff.
    My specific question--and I hope you address this--is: how 
can the Federal Government encourage and equip local 
communities and coalitions to actually participate effectively 
in this effort?
    Again, these are just a few of my concerns. With respect to 
the time, I will yield back whatever I have left in favor of 
listening to General McCaffrey.
    Thank you, Mr. Chairman.
    [The prepared statement of Hon. Doug Ose follows:]
    [GRAPHIC] [TIFF OMITTED] T2537.012
    
    Mr. Mica. I thank the gentleman.
    Just to make sure we correct the record before we recognize 
the General, on page 89 of the National Drug Control Policy I 
want to present a national award for graphics liberties, which 
is the National Drug Control budget funding trend up, which 
last year the total expenditures were $17.9 billion, and this 
year they are $17.8 billion, $109 million less, and it is 
cleverly done with the graphics that are represented, breaking 
out the supplemental as a separate expenditure. But, in fact, 
there are decreases in some of the areas which I pointed out 
and expressed concerns about, and I have this awesome chart 
that the staff has prepared, which I am going to ask be 
submitted to the record. It shows the fiscal year 2000 
expenditures for international dropping 43 percent from 1999 in 
the proposal by the administration, for total dollars spent in 
interdiction, which would be down 18 percent. These are the 
exact figures, in spite of the classy fashion in which the 
information is prepared.
    Without objection, that will be made part of the record and 
tidy it up a bit, I hope.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T2537.013
    
    Mr. Mica. With that, General, we are pleased to have you 
here. We apologize for the delay. We look forward to your 
testimony and look forward to working with you as we tackle 
this tough problem.
    You are recognized, Sir.

 STATEMENT OF GENERAL BARRY R. McCAFFREY, DIRECTOR, OFFICE OF 
                  NATIONAL DRUG CONTROL POLICY

    General McCaffrey. Thank you, Mr. Chairman, for the 
opportunity to appear in front of this committee and try and 
not only lay out what the administration's strategy and budget 
entail, but also to listen very carefully to your own comments 
and respond to your questions.
    Let me also thank Representative Mink for her leadership. I 
look forward to working with you as a partner in the coming 
years in this committee, and for the many others in the 
committee who I have worked with over the last several years.
    A lot of the people who are vital to the national drug 
effort are here in the room with us, and I would not be able to 
mention all of them, but I would be remiss to not note Dr. 
Linda Wolfe Jones, Therapeutic Communities of America; Jennifer 
Collier McCall of the Legal Action Center; Sara Cason from the 
National Council on Alcoholism and Drug Dependence; of 
particular pride to have here Sue Thau representing Community 
Anti-Drug Coalitions of America, more than 4,000 coalitions 
across the country; Tom Hedrick from Partnership for Drug-Free 
America.
    I will try and show a smattering of this enormous effort.
    Mr. Mica. General, would you mind repeating them and having 
each of them stand so we can recognize them.
    General McCaffrey. Yes, I would be glad to.
    Dr. Linda Wolfe Jones, Therapeutic Communities of America; 
Jennifer Collier McCall, the Legal Action Center; Sara Cason 
from the National Council on Alcoholism and Drug Dependence; 
Sue Thau from Community Anti-Drug Coalitions of America, the 
umbrella organization all across the country; Tom Hedrick from 
Partnership for Drug-Free America. I know all of you know Jim 
Burk and the absolutely brilliant work they have done on the 
antidrug media campaign. I am always proud to have DARE America 
present. Jim McGivney is here representing the biggest antidrug 
prevention program in the country, 26 million kids and 9 
million now in the international community. Susan Weinstein, 
from the National Association of Drug Court Professionals, is 
here. There were 12 drug courts 3 years ago. There are almost 
500 now, either operating or standing up. Johnny Hughes is here 
from the National Troopers Coalition; and Dr. Bob Balster from 
the College on Problems of Drug Dependency. Many of the most 
serious academic researchers associate themselves with that 
program. I thank him for being here, along with Joe Peters, who 
has newly joined us as our HIDTA Director. He is a very 
experienced assistant U.S. attorney from Philadelphia, where he 
is chief of narcotics and organized crime, and we thank Joe for 
joining us.
    Mr. Chairman, if I can, let me ask your permission to enter 
into the record a written comment.
    Mr. Mica. Without objection, so ordered.
    General McCaffrey. We tried to pull together and provide 
you the facts that may help guide your own deliberations.
    Let me also run through very briefly, just laying out, so 
you can see it and hear it, the principal subcomponents of our 
national effort.
    [Simultaneous slide presentation.]
    General McCaffrey. There are four volumes, one of which you 
have already referred to, the national drug strategy. You just 
changed the law last session. You reauthorized ONDCP. The 
Speaker of the House was heavily involved in it, along with 
Denny Hastert, who was his quarterback. This now represents 
long-term commitment on the part of the U.S. Government, 
because you told me to do this with a 5-year or longer 
perspective.
    We have also now, by law--this is no longer collegial 
participation by my 50 associations in the executive branch. 
This is the 5-year drug budget that I am mandated by law to 
submit each year. It is still not very good, but it is now 
subject to your analysis and debate and the scrutiny of the 
news media and these other representatives from the principal 
national antidrug elements so that we can start getting into a 
dialog on prevention, treatment, law enforcement, interdiction 
over time. I commend this to your attention. We put enormous 
energy into it.
    We have also submitted performance measures of 
effectiveness. We have revised them again. Last year we thought 
it was a dramatic breakthrough in trying to hold the executive 
branch accountable over time with achieving results.
    There are now 12 outcomes that are defined by an algorithm, 
and there are 82 subordinate variables that we will measure, 
and I will report to this committee each year what we achieved 
with the money you gave us in the earlier year.
    The 1990 report makes the first attempt to give you a 
report on what we claim we have achieved, and we welcome your 
own questions on that.
    A classified volume, which is available to you in the 
normal controlled manner, is the national drug control strategy 
classified annex, which is classified ``secret'' and tries to 
outline the interdiction and international law enforcement 
policy and programs. This is the second time we have put it 
out. It is better. It is more useful now to help govern our own 
internal dialog among, particularly, the intelligence and law 
enforcement agencies.
    If I may, let me briefly show you a few charts to tell you 
the principal elements.
    The first chart, to your front here, again reiterates that 
we have organized this effort around five goals. There are now 
31 objectives. They were designed in consultation with 
literally thousands of individuals and institutions across the 
country. We think it is a solid piece of work. As you read it, 
it will make sense to law enforcement, educators, health 
professionals, coaches, and the men and women of the Armed 
Forces--the Coast Guard and other agencies. We think this is a 
good way to organize ourselves.
    This is also, I underscore, not the Federal drug control 
strategy, it is the national drug control strategy, so I am 
putting a lot of effort into it, along with my colleagues, to 
make sure that States and local governments and NGO's see this 
conceptual architecture and try and talk about the issue and 
organize programs and budgets in some common way.
    We have got to acknowledge it is possible to do something 
about drug abuse in America. We are persuaded by Partnership 
for Drug-Free America data, by Columbia University, by the 
brilliant work at University of Michigan Survey Research Center 
that youth attitudes drive drug behavior.
    We are persuaded that the number of adolescents using 
gateway drugs, the degree to which they become involved in pot 
smoking, alcohol abuse, cigarettes, and the rest of this 
stuff--and when I say ``the rest of this stuff,'' I acknowledge 
more 8th graders than 12th graders use heroin in today's 
America. That is the second year in a row I have said that. It 
is still a minute aspect of the problem, but it is an 
indication that if we want to see 10 years from now what will 
be the drug abuse problem we are debating, watch the middle 
school kids.
    As we look at the middle school kids, we think we are 
beginning to see the turning point in what will have to be a 
10-year struggle to grab each group of adolescents as they hit 
those years and persuade them that drug abuse is harmful to 
their own health and development. And we are starting to see 
youth attitudes in the 8th grade, 10th grade, and 12th grade 
have all definitively, from a mathematical correlation point, 
turned around from 5 earlier years of running the wrong way. 
These are modest changes in behavior and attitudes, but, if 
continued, and if we focus on that age group, in my judgment 
and the judgment of most of us--Dr. Allen Leshner, in 
particular, our Director of NIDA--this will be the payoff.
    Having said that, there may be a decade lag between an 
adolescent who becomes a compulsive drug user--and I know you 
understand this. Kids actually get addicted when they are 15, 
16, 17, and 18, and some of them are completely wrapped up in 
drug-taking behavior; 10 years or 15 years later they are in 
the hospital emergency rooms or in the prison system, they are 
HIV positive, they dominate the crime scene.
    And so, if you look at the 4.1 million Americans who are 
chronically addicted to drugs, they are doing enormous damage. 
That is who is in the hospital emergency room.
    Social cost--there is a lot of money involved in this. 
These are huge dollar amounts. And I put alcohol in there to 
underscore the fact that in today's America we are talking 
about poly drug abuse. It is rare to see somebody who is in 
serious difficulty who is not using heroin and alcohol, cocaine 
and other drugs. These are poly drug abuse situations, and if 
the treatment system is not adequately focused on the client, 
you end up with one behavior being modified and the addict goes 
to other drug-taking methods. But $110 billion is the bottom 
line to the damage done in the criminal justice system, the 
health system, industrial accidents, et cetera. It is a huge 
problem. It dominates some aspects of our society, and we are 
going to talk about its impact on criminal justice.
    This assertion I would say is scientifically unarguable. If 
you do effective drug treatment, if you target this drug 
treatment on this modest percentage of the population which is 
addicted, 4-million-plus people--that is probably the most 
useful estimate of its size--their malevolent behavior, their 
malignant behavior, their impact on society will change 
dramatically.
    You cannot cure a 31-year-old heroin addict, but you can 
change their behavior, and so one of the two studies that I am 
most likely to cite, the DATOS and ENTIES study, both tend to 
show, using large numbers of the addicted, that if you get them 
into treatment you modify their behavior dramatically. And most 
of those numbers essentially say there is a 50 percent 
reduction in the behaviors that are most dangerous to us.
    The next one again talks about criminal activity, rather 
than just drug-taking activity. If you look at things like 
selling illegal drugs, shoplifting, assault, beating somebody 
up--down a little more than 77 percent. Treatment pays off, and 
there is a cost, of course, in the criminal justice system to 
all these deviant behaviors.
    Here is a point I think we need to make most strongly. 
Donna Shalala, our Health and Human Services Secretary, I would 
argue is the most knowledgeable about being opposed to the use 
of marijuana combined with other drugs, particularly by young 
people. She has seen it all her life as a college president and 
professor.
    It is inarguable that, although we do not claim causal 
linkages, young people who smoke marijuana a lot--and you will 
also find other drug-taking behavior associated with this--that 
their tendency to be involved in criminal behavior, deviant 
behavior, failure to learn, dropping out of school, sexually 
transmitted diseases, all of them are higher. And so we say 
that this is harmful to the physical, emotional, and moral 
development of young people. Physically attacking people, 
destroying property, almost across the board there is a 
relationship between pot use and these activities.
    Let me also again make the point--and this is University of 
Michigan data of Survey Research Center. It has been going on 
since the 1960's, in which we tried to follow youth behavior, 
self-reported, to track their attitudes. There are two 
attitudes that are key: to what extent do I disapprove of drug 
use? The second attitude is: to what degree do I fear drug use 
for me?
    When those attitudes go back, drug use goes up. When the 
attitudes start to change, their personal behavior begins to 
reflect it.
    What we are seeing clearly, having seen a spectacular and 
extremely threatening 5-year rise, these behaviors, almost 
across the board, most dramatically among 8th graders, least 
dramatically among 12th graders--which is what you would 
expect--the curves are beginning to turn around. It is still, 
obviously, unacceptable. We have got one out of four high 
school seniors in this country regularly using drugs, one out 
of four, and that is the population that will generate the 
chronic addicts of America 10 years out.
    Let me just again remind you that if you go to the serious 
law enforcement people--Lori Robinson, Assistant Attorney 
General, is the basis for a lot of our studies, along with 
Jeremy Travis, but also the experienced law enforcement, 
leadership, Louis Freeh, Tom Constantine, Ray Kelly, and 
others--this huge number of Americans behind bars, costing $36 
billion. It is growing. It will go up another 20 percent in the 
coming years if we do not do something differently.
    If you look at that population, if you buy Joe Califano's 
Colombia University data, 80 percent of them are in there 
because their behavior is contaminated by alcohol and drug 
abuse. My guess is 50 percent is probably a more demonstrative 
statistic, but people end up unemployed, sick, and involved in 
criminal behavior, and then behind bars, resulting from the 
abuse of alcohol and other drugs.
    If we get at that behavior--and there really are not that 
many of them--1.8 million people--50 percent of them clearly 
are addicted to compulsive drugs. That is the population that 
we have to bring under control, and I think there has to be a 
tough love element to it. It is not enough to have a $3 billion 
treatment effort. It has to be linked to the criminal justice 
system.
    Thanks very much.
    Let me, if I may, end by also stating that our drug budget, 
the fiscal year 2000 budget, which was also sent over--we will 
have hearings on that next week. I would, however, underscore 
my appreciation for the rather dramatic increase in funding 
that the Congress has given us between fiscal year 1996 and 
2000. That is the piece of it that I have focused on. In that 
period of time, Mr. Chairman--and I thank you for your personal 
support--international programs went up 120 percent. That is in 
raw dollars. That is not a sound bite. That is fact--a 120 
percent increase in international programs.
    You have increased interdiction funding by 47 percent in 
those budget years. You have increased law enforcement funding 
by 24 percent.
    Now, in addition, I would underscore my appreciation that 
prevention dollars are up 55 percent, if you would take the 
fiscal year 2000 submitted budget. Treatment dollars are up 25 
percent, and research money--most importantly, many would 
argue--up 35 percent. So we are moving to respond to the 
dictates of our own strategy, of our own rhetoric, and we think 
it is going to pay off over time.
    I would also add, however, I share--you listed six 
concerns, Mr. Chairman, and I think you are right on the money 
on all six of them. I think there are ways to put it in 
context, and I would appreciate the chance to lay out what we 
are doing, but I think you are quite correct being worried 
about cost-effectiveness, lack of organization, what are we 
going to do in the interdiction effort once we lose Panama, 
what are we doing on the southwest border, corruption and 
violence in Mexico, drug-free communities, are they adequately 
funded, yes or no. And your concerns about the certification of 
Mexico I think are all quite valid.
    With your permission, let me show you a minute-and-a-half 
of video, and I would welcome your questions on the media 
strategy.
    We went, in 2 years, from a 12-city test with 12 control 
cities to national implementation using Partnership for Drug-
Free America material. Now we have got the big guns involved. 
Some of the most sophisticated people in this country are 
involved in the effort.
    We, again, are grateful that more than 200 advertising 
companies do this work for free. We pick up production costs, 
but this work is nonprofit for the ad agencies involved. The 
Actor's Guild wave their fees. So what we are doing with our 
precious dollars is targeting access where kids and adult 
caregivers are involved.
    We have made, we think, initial and rather dramatic impact. 
Our target was four times a week adolescents in America, with a 
90 percent target penetration, would see or hear or read our 
material. In fact, we are about seven times a week with 93 
percent target penetration. It is almost unprecedented in this 
area.
    Kids see the ads, they notice them, they are responding, 
the calls to community coalitions have skyrocketed, even though 
only 10 percent of those initial ads had a telephone number on 
them, and the calls into Secretary Shalala's information 
clearinghouses have gone up dramatically.
    By the end of the summer I hope we will be online in 11 
languages. When we started Spanish, it went from 4 calls a day 
to more than 60 per hour when we got online with targeted ads. 
We are going to work, essentially, substrategies in 102 
different media markets.
    We are quite proud of it.
    And, on top of that, in accordance with the law, we 
negotiated 100 percent or more matching access, and we have 
done it with a very conservative algorithm on measuring what 
constitutes matching. We actually have achieved 107 percent 
increase in access with the dollars Congress gave us.
    On that note, if you will, let me just end by showing you 
this video on work that is being done by the networks to 
reinforce our own PDFA efforts.
    [Videotape presentation.]
    General McCaffrey. Mr. Chairman, I thank you for the chance 
to make these statements and look forward to responding to your 
questions.
    [The prepared statement of General McCaffrey follows:]
    [GRAPHIC] [TIFF OMITTED] T2537.014
    
    [GRAPHIC] [TIFF OMITTED] T2537.015
    
    [GRAPHIC] [TIFF OMITTED] T2537.016
    
    [GRAPHIC] [TIFF OMITTED] T2537.017
    
    [GRAPHIC] [TIFF OMITTED] T2537.018
    
    [GRAPHIC] [TIFF OMITTED] T2537.019
    
    [GRAPHIC] [TIFF OMITTED] T2537.020
    
    [GRAPHIC] [TIFF OMITTED] T2537.021
    
    [GRAPHIC] [TIFF OMITTED] T2537.022
    
    [GRAPHIC] [TIFF OMITTED] T2537.023
    
    [GRAPHIC] [TIFF OMITTED] T2537.024
    
    [GRAPHIC] [TIFF OMITTED] T2537.025
    
    [GRAPHIC] [TIFF OMITTED] T2537.026
    
    [GRAPHIC] [TIFF OMITTED] T2537.027
    
    [GRAPHIC] [TIFF OMITTED] T2537.028
    
    [GRAPHIC] [TIFF OMITTED] T2537.029
    
    [GRAPHIC] [TIFF OMITTED] T2537.030
    
    [GRAPHIC] [TIFF OMITTED] T2537.031
    
    [GRAPHIC] [TIFF OMITTED] T2537.032
    
    [GRAPHIC] [TIFF OMITTED] T2537.033
    
    [GRAPHIC] [TIFF OMITTED] T2537.034
    
    [GRAPHIC] [TIFF OMITTED] T2537.035
    
    [GRAPHIC] [TIFF OMITTED] T2537.036
    
    [GRAPHIC] [TIFF OMITTED] T2537.037
    
    [GRAPHIC] [TIFF OMITTED] T2537.038
    
    [GRAPHIC] [TIFF OMITTED] T2537.039
    
    [GRAPHIC] [TIFF OMITTED] T2537.040
    
    [GRAPHIC] [TIFF OMITTED] T2537.041
    
    [GRAPHIC] [TIFF OMITTED] T2537.042
    
    [GRAPHIC] [TIFF OMITTED] T2537.043
    
    [GRAPHIC] [TIFF OMITTED] T2537.044
    
    [GRAPHIC] [TIFF OMITTED] T2537.045
    
    [GRAPHIC] [TIFF OMITTED] T2537.046
    
    [GRAPHIC] [TIFF OMITTED] T2537.047
    
    [GRAPHIC] [TIFF OMITTED] T2537.048
    
    [GRAPHIC] [TIFF OMITTED] T2537.049
    
    [GRAPHIC] [TIFF OMITTED] T2537.050
    
    [GRAPHIC] [TIFF OMITTED] T2537.051
    
    [GRAPHIC] [TIFF OMITTED] T2537.052
    
    [GRAPHIC] [TIFF OMITTED] T2537.053
    
    [GRAPHIC] [TIFF OMITTED] T2537.054
    
    [GRAPHIC] [TIFF OMITTED] T2537.055
    
    [GRAPHIC] [TIFF OMITTED] T2537.056
    
    [GRAPHIC] [TIFF OMITTED] T2537.057
    
    [GRAPHIC] [TIFF OMITTED] T2537.058
    
    [GRAPHIC] [TIFF OMITTED] T2537.059
    
    [GRAPHIC] [TIFF OMITTED] T2537.060
    
    [GRAPHIC] [TIFF OMITTED] T2537.061
    
    [GRAPHIC] [TIFF OMITTED] T2537.062
    
    [GRAPHIC] [TIFF OMITTED] T2537.063
    
    [GRAPHIC] [TIFF OMITTED] T2537.064
    
    [GRAPHIC] [TIFF OMITTED] T2537.065
    
    [GRAPHIC] [TIFF OMITTED] T2537.066
    
    [GRAPHIC] [TIFF OMITTED] T2537.067
    
    [GRAPHIC] [TIFF OMITTED] T2537.068
    
    [GRAPHIC] [TIFF OMITTED] T2537.069
    
    [GRAPHIC] [TIFF OMITTED] T2537.070
    
    [GRAPHIC] [TIFF OMITTED] T2537.071
    
    [GRAPHIC] [TIFF OMITTED] T2537.072
    
    [GRAPHIC] [TIFF OMITTED] T2537.073
    
    [GRAPHIC] [TIFF OMITTED] T2537.074
    
    [GRAPHIC] [TIFF OMITTED] T2537.075
    
    [GRAPHIC] [TIFF OMITTED] T2537.076
    
    Mr. Mica. Thank you, Mr. McCaffrey. I appreciate your 
testimony and want to take just a minute, if I can, to 
introduce a couple of additional guests that we have with us 
who are visiting from Bolivia. One is Juan Francisco Porque, 
who is the antinarcotics minister for that country; Naguida 
Nayar, who is the minister of government. If you gentlemen 
would stand up, I would like to recognize you.
    [Applause.]
    Mr. Mica. As I mentioned in my opening remarks, Bolivia has 
embarked on an unprecedented eradication and crop substitution 
program, through the efforts of some support from the United 
States and some international support. They have just done an 
incredible job of eliminating coca production by very 
significant percentage, and have a plan that we discussed with 
President Hugo Bonsar during our visit to try to get almost all 
production eliminated by the year 2002. Bolivia is a small 
country with a big determination and some young, aggressive 
leaders who show what people can do when they want to turn a 
situation around, a model for all of us.
    We are pleased to have you with us.
    General, I have several questions. I support the treatment 
effort and the prevention effort and the education effort. We 
put tons of money in it.
    I have a little chart here that shows the national drug 
control policy from 1991 through 1999. We have just about 
doubled the amount of money in enforcement. In prevention, we 
have gone from $1.4 billion to $2.1 billion. In treatment, we 
have just about doubled the money from $1.8 to $3.1. And in 
these three areas I notice that we have significant increases 
over this period of time.
    However, in interdiction we still are not at the 1991 
levels, and in our international efforts we still are not at 
the 1991 efforts.
    Also, over the total funds that we increased last year, as 
I said, we have a 43 percent reduction in international and an 
18 percent reduction in interdiction.
    The trafficking pattern, as you know, has changed. We are 
not seeing as much cocaine. We are seeing heroin, 
methamphetamines, and dramatic increases across our Nation.
    I think we are being engulfed in new drugs that are coming 
across the border, and our strategy is not flexible enough to 
deal with this new marketing and with the incredible volume of 
drugs that is coming in.
    Can you answer why we are not looking at putting more into 
international and interdiction programs?
    General McCaffrey. Well, I chose 1995 to 2000. If you go 
back to 1991, your data is entirely correct. I certainly have 
an open mind to hearing a different viewpoint on how we could 
more effectively use additional dollars in both interdiction 
and international programs. It is clear that Colombia, in 
particular, is encountering enormous difficulties, and so the 
support, which we doubled last year for Colombia, is going to 
be money well spent in standing with a fellow democracy.
    The one caution I would have on 1991 funding levels versus 
2000 is for us to make sure we understand that when President 
Bush's team went after the Caribbean initiative and we first 
got spun up on this, a lot of that money was accounting for 
train-up costs for the United States Navy, who were working up 
for Med deployments in the Caribbean out of Guantanamo. So I am 
not persuaded that a lot of those dollars actually reflect 
smart drug policy, but, instead, are initial attempts, 
particularly in DOD, to respond to the President's 
instructions.
    But I think you are quite right, you know. We have a 
responsibility to stand, not just with Colombia and Mexico, but 
to continue the support to Bolivia and Peru and other nations 
as they succeed in their eradication program.
    I think your comment is a good one, as long as we spend 
money smartly when we do this.
    Mr. Mica. Well, again, we must stop drugs at their source, 
and it is so few millions of dollars that these partners are 
asking for.
    Some of the other concerns I have are the levels of 
funding, and I am not sure what you submitted to OMB or what 
your recommendations were, but I will give you a few areas that 
are of concern to me: the micro-herbicide program, the R&D 
program, the Customs and interdiction program, the counter-
intelligence program.
    I have become more and more convinced that intelligence can 
help us in this whole effort of stopping drugs before they ever 
reach our country.
    The Coast Guard operations and maintenance budget, and the 
United States-Mexico border security funding, can you tell us 
on those areas what your recommendation was and why these are 
not funded at congressionally approved levels?
    General McCaffrey. I would be glad to submit the working 
documents, because I do certify agency budgets and I certify 
department budgets, and so that is all public record, and I 
would be glad to show it to you.
    Mr. Mica. Were your recommendations higher in these areas 
than----
    General McCaffrey. Some are a little tough. The micro-
herbicide we fully support. We are going to go at it. The 
problem right now is not money. I would, indeed, argue right 
now the problem is we have got more money than I can safely 
spend. In future years, we are going to have to bring that 
program online, ensuring that we bring along with it answers to 
the environmental questions and we involve the multi-national 
community in its execution.
    So we do not have a problem with micro-herbicides. We are 
going to move on that, a very intelligent program.
    Mr. Mica. Do you believe that only $29 million additional 
for the Mexico/Andean countries and international strategies is 
sufficient?
    General McCaffrey. Probably not. I mean, these are tight 
budget decisions. There are unsatisfied demands in the Andean 
Ridge.
    I would argue we have made rather substantial increases in 
funding, and particularly in Colombia. I would also tell you 
that some of the countries--Mexico is less interested in our 
money than in our training, less interested in equipment than 
in intelligence sharing. So in some cases the answer is not 
money.
    Mr. Mica. My final question, then----
    General McCaffrey. The Coast Guard is another one.
    Mr. Mica [continuing]. Will deal with training in Mexico. I 
went down there and offered to extend any assistance possible, 
and members of our subcommittee did in our visit last week, but 
I have some concerns.
    Let me read from an account today, as reported in a 
magazine article,

    In September last year, DEA officials were snubbed by 
Mexican authorities when they offered their aid in 
investigating a vicious drug slaying in Baja, California, that 
left nearly two dozen people dead, including a toddler and a 
pregnant teen. One of the reasons for the refusal could well be 
that the killers, according to a U.S. intelligence document, 
may have been Mexican lawmen attached to one of four elite 
antinarcotics units trained by the DEA and FBI. They are 
suspected of having ditched their Elliott Ness-like untouchable 
status in favor of moonlighting for the Felix Brothers, the 
blood-drenched bosses of the Tijuana Cartel.

    I am concerned, and I have heard reports now that, even 
when we go back and see these people, that more than 50 percent 
of them are failing the lie detector test, and now I am 
concerned that people that we are training may be involved in 
some of the terrorism which is--we have gone from corruption to 
terrorism in Mexico, and this is a concern to me.
    Would you like to respond?
    General McCaffrey. I would not want to comment on our 
intelligence appreciation of that incident or others in a 
public hearing. What is unquestionable is that there is a 
massive threat of corruption and violence directed at Mexican 
institutions, in general, and law enforcement and the military, 
in particular.
    There are serious shortcomings in training and reliability, 
and the Mexicans are struggling to build new institutions.
    My own assessment, as I read Mr. Constantine's proposed 
testimony before they all came down here yesterday, I really 
did not factually have any substantial disagreement with any of 
them.
    Mr. Mica. We have 10 minutes. This, I understand, is going 
to be the last vote of the day. Why don't we go ahead and vote, 
and we will be back in exactly--well, we will try to make it 15 
minutes, and hopefully finish up by 12:30 or 12:45.
    Thank you.
    [Recess.]
    Mr. Mica. I would like to call this meeting of the Criminal 
Justice, Drug Policy, and Human Resources Subcommittee back to 
order.
    This seems to be the day for introductions, but I would 
like to take a point of personal privilege and use this 
opportunity to introduce my local sheriff, who has done an 
outstanding job in heading up our HIDTA activities in central 
Florida. Many of you have seen--they carry around this 
headline, ``Drug Deaths Top Homicides in Central Florida,'' and 
we are trying to do something about it, and the person who is 
leading this charge just happens to be with us today, Sheriff 
Don Eslinger from Seminole County.
    Don, welcome.
    [Applause.]
    Mr. Mica. I have finished my questioning, at least in the 
first round, of General McCaffrey, and I would like to yield 
now to our distinguished ranking member, Mrs. Mink, for 
questions.
    Mrs. Mink. Thank you very much, Mr. Chairman. I would like 
to assure your sheriff that I am going to do everything I can 
to get him more money. How is that? Can you top that?
    Mr. Mica. Working together, we can spend enormous funds, 
thank you, in a bipartisan effort.
    Mrs. Mink. Thank you. I have only 5 minutes, General 
McCaffrey, and there are really so many parts of your strategy 
that are important, and they are all inter-related.
    Coming new to this subcommittee, I wonder if you could just 
give us a brief rundown of the difference between this 1999 
strategy and the one that was prepared previously. What are the 
significant points of differences in terms of the strategy that 
you--I think it was 1996 when you put out your first report.
    General McCaffrey. Well, of course, Madam Congresswoman, 
there have been nine strategies, if I remember, starting over 
the space of four ``drug czars.'' In 1996, we went to 4,000-
some-odd people around the country. We listened carefully to 
them. We put together a strategy that we have been retooling 
over the last 4 years.
    Mrs. Mink. So what are the major differences?
    General McCaffrey. There are no dramatic changes, except, 
as you look at it, we have tried to tighten up the language. We 
actually switched two of these objectives among goals. We 
eliminated one objective. We were trying to satisfy the demands 
of some pretty knowledgeable people in law enforcement, drug 
research, prevention, treatment, et cetera, and I think we have 
gotten there.
    This strategy is widely applauded and accepted across this 
country by the people involved in this effort.
    Mrs. Mink. Now, going to that, on page seven of this 
strategy, where you have the goals of 1999, I am searching for 
the words in any of those goals, five goals, which relate to 
what I was trying to say in my opening statement, and that is 
emphasis on the local, national, State efforts to identify the 
drug syndicates, the drug lords who are operating within the 
United States and have--what have we done in terms of that 
effort, because, as I read the goals, there is not one of them 
that singles out that particular effort, and yet I know that a 
significant portion of your budget is devoted to that effort.
    My question really is: why is not it elaborated in one of 
your five goals?
    General McCaffrey. Well, I had an opportunity to meet with 
Congresswoman Mink for an hour or so this past week and took 
her comments to heart, and I certainly share your belief that, 
although prevention and education of youngsters is the heart 
and soul of this strategy, at the same time we owe the American 
people the most effective defense possible to keep drugs out of 
the work place, the school place, the home, and the community, 
and we have not adequately done that in the past.
    Now, having said that, it is unquestionable that--I mean, 
thank God for U.S. law enforcement. If they give up on us, our 
prevention and our treatment will fall apart. You cannot 
operate in a quasi-legalized fashion and succeed.
    I would also suggest to you that their effectiveness in 
going after organized crime inside the country is 
extraordinary. We arrested about a million-and-a-half people on 
a drug-related offense last year. We have behind bars--these 
data are somewhat soft--about two-thirds of the people in the 
Federal prison system, which is where most traffickers will end 
up, serious ones, if you look at that number it is almost 
60,000, are drug-related offenses, two-thirds of it. And, of 
that group, 86 percent are significant trafficking offenses.
    Even when you go to simple possession, Federal prosecution 
guidelines, we will not even prosecute if you do not have more 
than 100 pounds of marijuana on you, so you look at simple 
possession--normally it is up in the ton or more if you are in 
the Federal prison system.
    Literally, we have locked up thousands of people, and it is 
hard to find gringos who survive long in interstate criminal 
conspiracy involving drugs or money laundering. Half those 
people we locked up in the Federal system are Americans. The 
other half are foreigners, roughly.
    And if you go to the State system, the number we use, there 
is about 900,000 people behind bars at State level. Probably 
half of them are compulsive alcohol or drug users, or more, and 
22 percent of that 900,000 people are drug-related crimes. It 
is trafficking. It is that kind of activity. And so State-level 
authorities have been extremely aggressive in going after it.
    The shortcoming probably is--and, although we are doing 
better on it, it is things like money laundering. If we believe 
our own data, if we are really spending $57 billion a year on 
illegal drugs, where is the money going? And so we have done 
some--I would hope you would have a chance to visit the 
Financial Enforcement Center right outside of Washington. The 
Secretary of the Treasury runs it. It is an attempt to use a 
$200 million bank of computers up in Detroit, the Bank Secrecy 
Act, suspicious transaction reporting, and commercial data 
bases to go after money laundering. And it is really beginning 
to pay off.
    The Attorney General and the Secretary of the Treasury run 
a joint operation which is sensitive in New York and L.A. and 
in other places, targeting--one of them was in the press, 
Project El Dorado up in New York City--targeting money 
laundering.
    A lot of very clever things have been done. They use what 
is called ``GTOs,'' which restrict the use of set amounts of 
currency, and it is starting to pay off.
    I think what is happening now is these criminal 
organizations are trying to use other than the U.S. banking 
system. I mean, you can hide $1 million. You cannot hide 
multiple billion dollars. You have got to get it into something 
where there is a paper record. And they are going into other 
ways, trying to stay away from U.S. law enforcement.
    I think U.S. capabilities in the DEA, FBI, and Customs 
supporting local law enforcement have been extremely aggressive 
confronting urban and rural drug-related criminal 
organizations.
    Mrs. Mink. Our budget figures how much the Federal 
Government is spending in the national Federal level in terms 
of law enforcement. Can you give us a best estimate or guess in 
terms of what is being spent in the local and State areas for 
drug law enforcement efforts?
    General McCaffrey. If I may, let me provide it to you on 
the record. Two years ago the number I was using--and it is 
important that I get the question written down so that the 
answer matches the question--but the Federal effort, which was 
about $17 billion at the time, the national effort I was 
listing at more than $32 billion. So most of the law 
enforcement capability in this country against drug-related 
crime, the overwhelming majority of it is municipal police and 
sheriff departments. That is where our citizens are protected 
from this criminal activity. It is not Federal.
    Mrs. Mink. Thank you, Mr. Chairman.
    Mr. Mica. I thank the ranking member.
    I am pleased to yield now to our vice chairman, Mr. Barr.
    Mr. Barr. Thank you, Mr. Chairman.
    One thing that Mayor Guiliani and those of us on the 
subcommittee discussed yesterday was relating not directly to 
his work in the city of New York as its chief executive officer 
and the tremendous gains that New York has witnessed through 
primarily his leadership in violent crime, crime, generally, 
and certainly drug usage, but he also touched a little bit, 
based on his extensive knowledge on fighting the war against 
drugs on all fronts, he also touched yesterday on some of the 
foreign policy aspects of drug control policy.
    And Major Guiliani, who I have great respect for, as I know 
you do, General, said that, in his view, at the very top, not 
just as a priority, but at the very top of the list of the 
questions that our President and our foreign policy officials 
ought to ask of foreign leaders in any discussions or 
negotiations with foreign leaders, those that are involved in 
the drug control business, is: where are you on helping us 
fight the war against drugs? And before we move on to question 
No. 2 or No. 3 or No. 4 or No. 8 or assistance or what not, 
that question ought to be answered satisfactorily; otherwise, 
we do not reach the other questions.
    I think the mayor is right on target. I think that the 
history of our Government's--not just this administration, but 
our Government's efforts in dealing with these matters, 
antidrug matters with foreign nations, does not follow the 
mayor's advice. I hope that one day it does.
    I think that we are witnessing very serious problems in 
Mexico, partly as a result of this administration's policy 
decision not to place that question at the top of the list, and 
anything that you can do to move them in that direction would 
certainly be appreciated.
    I would like to specifically, General, address an issue 
that we have had a number of discussions on in the past, and 
that is legalization efforts.
    The language in your report with regard to marijuana is 
very similar to the language in last year's report. I am 
somewhat intrigued by this year's report having a separate 
section for countering attempts to legalize drugs and 
countering attempts to legalize marijuana. I am wondering what 
sort of message that sends to people that legalizing marijuana, 
even though it remains a Schedule One controlled substance and 
is a mind-altering drug, why that is somewhat different, why 
there is not just a very short statement that the 
administration will continue to resist all efforts to legalize 
mind-altering drugs. I do not know why the administration has a 
hard time just making that statement and separating out 
marijuana legalization.
    To treat it differently I think sends a very contradictory 
message that is not lost on young people. They look at this 
report, and it will be cited by all sorts of legalization folks 
out there, and our delightful friends, George Sorros and so 
forth, who are in the forefront of the legalization movement, 
and I think it will undermine your efforts, the way you all 
have dealt with this.
    Why cannot the administration just come out and boldly say, 
``We are against mind-altering drug legalization. We are not 
interested in participating in studies to see if marijuana can 
be legalized''? Why not have the entire burden and have it a 
very high burden on those that seek legalization? Why should 
we, our Government, which is against mind-altering drug usage, 
why should we spend any taxpayer dollars? Why should we even 
care about efforts to legalize marijuana?
    If somebody wants to come forward and say, with a 
scientific certainty, that marijuana does, indeed, have 
legitimate medical uses and ought to be removed from Schedule 
One, why not put the burden entirely 100 percent on the 
legalization proponents, have them propose legislation to move 
it off of Schedule One? Why are we involved in any way, shape, 
or form with these what I consider very almost contradictory 
statements on legalization of marijuana?
    For example, if, in fact, somebody comes forward or one of 
these studies shows that, well, maybe there is some medical 
benefit for the use of marijuana, which I disagree with, does 
that mean that the administration would seek to move it off of 
Schedule One, even though there are other drugs on the market 
and more coming on the market, as I understand the research, 
that can more than adequately handle the purported beneficial 
uses of marijuana?
    General McCaffrey. Thank you, Mr. Congressman.
    Let me join you in saying that Mayor Guiliani has been, of 
course, an extremely effective mayor, and there is a lot to be 
learned. I go up there all the time to look at what Howard 
Safer and the NYPD do in community policing, and there are some 
very effective linkages of drug treatment.
    New York City, of course, has a gigantic addicted 
population, and, whether it is from Phoenix House, Dr. Mitch 
Rosenthan, or from Dr. James Curtis in Harlem with his method 
on maintenance programs, there is just a lot of good thinking 
up there and I have great admiration for them.
    I would also agree that drug policy should be a preeminent 
concern of the United States dealing with our international 
partners. One of the challenges is that the biggest drug 
problems that we face--Afghanistan, Laos, Burma, eastern 
Colombia, some of the mountainous regions of Mexico, 
southeastern Turkey, the Bekaa Valley in Lebanon--it is places 
where organized governments have little or no control over 
their own territory, and where the criminal elements in the 
area--the FARC in Colombia is such a lethal threat to democracy 
that their battalions have more automatic weapons and better 
pay than the Colombian army. That is one of the challenges.
    So when you deal with the President of Colombia, you have 
to take into account the degree to which he can do something 
about it.
    But your point is well taken, and I could not agree more.
    Let me, if I can, talk about the legalization issue. I had 
not heard the comment about separating them and the way that 
one could interpret that, and I thank you for that comment.
    Now, let me tell you what our own intent was.
    We, the administration, are unalterably opposed to the 
legalization of marijuana, directly or indirectly, and it is 
clear, from listening to our repeated public statements by 
Attorney General Reno, Secretary Shalala, and I, in particular, 
but also Mr. Constantine and others, that we are adamantly 
opposed to the legalization of marijuana, and it is not open to 
debate.
    Now, I think what has happened is the legalization people 
are about as cunning a group as I have ever seen. I do not 
think there are many people involved in it. As far as I can 
tell, there are about five of them that pay for most of it, and 
about 300 of them on the Internet that help organize it. They 
have done extremely well with limited money--$15 million or 
whatever to intervene in California. I think it was under $8 
million in the State of Washington. So now we have ended up 
with eight States and possibly the District of Columbia that 
have passed some form of medical marijuana act. In Arizona it 
was most sweeping. Five of them are literally the same act. It 
is the same TV ads that turned the States around.
    Added to that is the kind of clever dealings with 
industrial hemp, which is the other piece of this, and which, 
as I am fond of saying, noted agronifs like Woody Harrelson are 
speaking out to have industrial hemp save America's forests.
    So we have focused on that issue and pulled it out so that 
we can directly confront the notion that medical pot is off 
limits to this discussion.
    Now, why do we investigate medical marijuana's claims? I 
think, just as a matter of principle, starting in the 1980's, 
any drug that alleges it has benefit, if it can demonstrate to 
the NIH and the Food and Drug Administration under clinical 
trials that it is safe and effective for the purpose 
prescribed, then the door is wide open, and under that logic 
methamphetamines are available to physicians, cocaine products 
are used for eye surgery, and, indeed, in the mid-1980's, 
marijuana was pulled apart, 435-some-odd compounds. THC, 1 of 
the 30-some-odd active cannaboids in marijuana, was isolated as 
having potential medical benefit, and it was produced 
commercially as synthetic THC marinol, which is available with 
a doctor's prescription in a pharmacy today, and it is 
available for use, to include control of nausea from 
chemotherapy.
    It is not used much because it is not effective compared to 
other drugs, but it is there. And we have said, ``Well, we are 
perfectly willing to have these bright people in NIH fund 
controlled studies where other components of smoked marijuana 
could be looked at as potentially beneficial, and, indeed, if 
smoked marijuana can demonstrate that it is useful, then it 
would presumably be made available to America's medical 
community under controlled conditions.
    I do not personally believe that is going to happen. I do 
not believe somebody is going to have a joint stuck in their 
face in an ICU. My daughter works in ICUs in Seattle, and I do 
not believe that is going to be the pain management agent for 
prostate cancer 10 years from now. I think it is nonsense. But 
it is potentially possible that there are other compounds in 
marijuana that might have some payoff, and if there are, fine, 
provide them to American medicine.
    I think we have to confront this issue directly. I share 
your anxiety. I think your concern is valid.
    Mr. Barr. Thank you, General.
    Mr. Mica. I would like to recognize the gentleman from 
Indiana, Mr. Souder.
    Mr. Souder. Thanks. I have a series of things here, some of 
which can be followed up later if you want to get into more 
detail. Our office will be in touch with your office.
    I have one thing directly that came up right in my District 
in the Drug-Free Communities Act and leads me into some policy 
questions, and I am going to go through and name a couple of 
these different categories, even though some of them are 
different from each other.
    In the drug-free communities program, I worked aggressively 
with all these different groups in our District. A number of 
them got their proposals in. One of them was from a smaller-
sized county, where the biggest city in that county is roughly 
12,000 people, and they had been very active in community 
things and got a grant. They informed me that they have been 
told that their grant is going to be reduced 25 percent next 
fiscal year and 50 percent the following 3 years because of a 
policy change because we did not, in the past Congress or in 
your budget that is in front of us, fund it at the level that 
we authorized the program.
    Combined with that, to try to reach more different 
programs, now the programs that already have been told this is 
how much money--in the case of this one in Noble County, 
already hired the personnel, started the program--are suddenly 
faced with having to raise $25,000 to $50,000 a year 
additional. In this community, they do not have it. Maybe in an 
urban area there are those kinds of resources, but in the rural 
communities, if they got the grants, and probably in some inner 
city communities, as well, there is not, particularly once you 
have started the program, the ability to suddenly change that.
    I have some concerns about what, in effect, they are going 
to do, most likely, around the country is weaken the programs.
    And part of our problem in the drug-free schools, which I 
want to touch on next, is that sometimes we seem to give these 
schools just enough to run an ineffective program but not 
enough to run an effective program.
    It is a dilemma that we have of how to spread the reach 
without compromising the integrity of it. But what is 
particularly upsetting in this case is the program started out 
assuming they had that and may not have the resources to go 
ahead.
    We can followup with that with your office, but I would 
like to at least get a preliminary on the record as to why we 
changed this after we started, or should we make that a 
priority in our funding that this program needs additional 
dollars.
    On the Drug-Free Schools Act, I am on the Education 
Committee and I am going to be working with this directly and 
have battled the last 2 years because this program has had a 
very tenuous existence in our appropriations process, partly 
because, while you cited in your research a few studies that 
have suggested there has been some success, the truth is, the 
studies with this are very mixed.
    What we know is they are not doing any harm; it is just not 
clear how to make these programs more effective.
    I carefully went through your national strategy, and, while 
you give some things in it that you did last year, there is not 
a whole lot of suggestions for us to grab hold of as we retool 
this program, and I would appreciate working with your office 
as we look at this, as we go through our hearings, and try to 
target this program, in particular.
    So that is open ended. We need to work together because 
this is a--we are all saying we need to do demand reduction in 
education efforts, yet the facts are the studies are very 
mixed. A lot depends, even in the DARE program, which I, when I 
worked for Senator Coates, helped with Senator Wilson at that 
time do the first funding bills. It really depends a lot on the 
commitment of the particular officer. It is so erratic.
    And then we have tracked in every school in our District to 
see how they are using these moneys, and some of them are 
having health clinics and some of them are doing self-esteem 
courses, and some of them need to get hold of, if we are really 
going to turn, rather than slightly turn, and particularly in 
the youth, we have to have a more-aggressive strategy directly 
in the schools with the youth.
    Which then leads me, I completely agree with Congressman 
Barr. Unless we can get a hold of this medicinal use of 
marijuana, when I go into schools and talk about this you get, 
``Well, it is medicine'' back in your face. And the more 
particular referendums we are losing, it is like, no matter 
what else we do, we are going to be overwhelmed with that.
    I have a couple of things I just want to throw out. One is 
that in your documents that you produced, one of my questions 
is you have a, ``Marijuana Facts for Teens,'' a ``Marijuana 
Facts for Parents,'' and I am wondering whether the question of 
medicinal use of marijuana is integrated in these documents in 
an informational way.
    Two, there is no doubt that the partnership ads are the 
most effective thing we have on the market. Has the PDFA or a 
combination of similar advertising experts been asked to look 
at printed materials that are going into the hands of kids in 
school, or is that something we should look at in the Drug-Free 
Community Schools Act and something we should be aggressive at? 
And how can we do creative things or integrating some of the 
people we see in these TV ads into a print format, rather than 
just have dry fact booklets or scare type booklets? Some sort 
of way in the schools to reach these kids, particularly--I saw 
we had at least one Hispanic ad there--one of our weaknesses 
has been how to reach the populations that are highest risk. 
Everybody is at risk in drugs. I understand that basic 
principle. But some, quite frankly, are higher risk than 
others. Are our programs aimed at trying to do that type of 
thing?
    I am also looking for creative ways, both in medicinal use 
of marijuana and in the Drug-Free Schools Act, to say, ``What 
about tying in not only the commercial television, but how can 
we use the video systems in the schools to get this information 
out on the partnership ads and other things inside the 
schools?'' Are there creative things we can do with the Drug-
Free Schools Act? Also, should we have medicinal marijuana 
information and education parts as a mandatory component of any 
school that wants drug-free schools money, they have to have 
something? And then do we have materials to give them?
    I threw far more than you can probably handle here, but I 
threw that more out as a stimulus, and I do have a particular 
concern with the Communities Act that I worked with Congressman 
Portman to do.
    One other thing. I want to commend you for this drug 
treatment conference and prevention that you are going to work 
with Mexico. I think one of the ways we can--while we are not 
likely, in the short term, to drop certification, reaching out 
to these countries now that have their own treatment problems 
and working together in treatment and prevention is an 
important step, and I wanted to commend you for that.
    General McCaffrey. Thank you for those comments. I will try 
and ensure that our staff responds to each one of these 
concerns in turn, the four of them you have expressed.
    The Drug-Free Community Act, it is interesting to me to 
watch the reaction of that. That was a tiny program, thank God 
for Rob Portman and Sandy Levin and Senators Biden and Hatch 
and others that gave us that money. It is not much money. It is 
about $180 million over 5 years, and it was going to ramp up 10 
million, 20 million, et cetera.
    It was seed money. It actually, if you look at the 
algorithm, it was 435 Districts times 100,000. That is sort of 
where we started in on it. But there was no intention to do a 
large program. It was an HHS block grant, one time, fund these 
guys, allow them to hire people, rent buildings. That was seed 
money to initiate a new coalition.
    They are fighting over it now. There was no guarantee that 
if you got a grant approved year one you would get it for 5 
years. It was never the intention, never mind that it would 
remain at standard funding level.
    And in every case Congress wisely required matching funds, 
unlike most HHS programs. So we said, ``If you want to come in 
and get some of this startup money, you have to be--'' there 
were several criteria listed. You have to be in existence 6 
months, you have to have matching funds, et cetera.
    We will sort it out, and I will certainly listen to the 
intent of Congress. If there is a lot more money there, we 
could do it a different way. But our intention was, 5 years 
from now, instead of 4,000 community coalitions, there would be 
more than 15,000, to try to incentivize getting new coalitions 
to stand up and not pay for manpower.
    I would also tell you that the drug-free schools program--
Secretary Riley and I have been working on it. We agree people 
are too all over the map. The law has no controls on it. There 
is no requirement to report what you spent the money on, there 
are no constraints on what you can spend the money on.
    Some of these programs are mismanaged. The GAO found out 
about that, the ``Los Angeles Times'' did, and my own view of 
it is that we are paying for some programs that do not work.
    Two years ago, Secretaries Riley and Shalala and I called 
in the educators of America, and we again gave them a tutorial 
that NIDA--National Institute of Drug Abuse--spent a half 
billion last year on research. We do have studies that talk 
about prevention guidelines. There are ways to go about this 
that do work.
    I might add, the DARE program, which I am an absolute 
supporter of, has revalidated their curriculum and is asking 
the officers to go through training and follow the curriculum, 
and if they do it will help.
    So we have got to get U.S. educators to understand and use 
prevention guidelines.
    I would also tell you I do not think we are going to solve 
this until the Governors get involved. We have got to have 
Governors figure out where this money is going and internally 
ensure that it is well spent, and right now Secretary Riley has 
tried to get, as I remember, a 20 percent set-aside to begin 
that process, and some States are really jumping into it, and I 
applaud their leadership.
    Pot use in schools--are we talking to kids in the 
classroom? Mr. Congressman, we are doing that in a big way. 
This is an integrated campaign. We have got Ogilve Mather doing 
the advertising, a firm called Fleishman-Hillard trying to 
integrate the thing and make sure that it is not only inside 
the Entertainment Industry Council, but it is inside the 
school, it is inside the Internet. I have Porta Novelli, which 
has a tremendous amount of experience in health-related 
campaigns, advising me personally.
    We have talked to the producers, the writers of the major 
TV networks of America. We are on Fox Family TV. We are on the 
Learning Channel. Secretary Riley has got an enormous amount of 
information going in written form, and we are supporting other 
institutions that are influencing that educational process.
    So I could not agree with you more. When they are in 
school, they should be subjected to a scientifically correct 
message about drug abuse, and it should not come from some 
outsider. It ought to be their own health teacher, the coach, 
the social studies teacher. That has to be who communicates to 
young people.
    There is an enormous amount of printed material going out, 
and some of it is first-rate.
    I, by the way, just approved the second generation and have 
seen the beginnings of the third generation ads, so we are 
going to start developing materials that are extremely 
effective.
    And I thank you for your comments on conferences with 
Mexico on demand reduction. We have made the argument that 
Mexico's drug abuse problem is a fraction of ours, but theirs 
is going up and ours is going down. No society is immune from 
drug abuse. The drug abuse problem in Caracas is abysmal, and 
Rio de Janeiro is disastrous, in Bogota, in Lima. The Bolivian 
authorities who were here have learned that the drug abuse 
problem down in Shapari Valley region among their own kids is 
skyrocketing.
    I think it is healthy for us to all understand that this is 
the important dimension to the drug program, and no one who 
handles this stuff gets away free.
    Thanks for those comments. I will try to respond 
practically to your concerns about the Drug-Free Community Act, 
Mr. Chairman.
    Mr. Mica. I thank the gentleman, and I would like to 
recognize now the gentleman from California, Mr. Ose.
    Mr. Ose. Thank you, Mr. Chairman.
    Briefly, I would like to request that the record be left 
open so I can submit questions for the General to respond to. I 
do not have time to do this verbally. I am going to have to 
submit questions.
    Mr. Mica. Without objection, we will make your questions 
part of the record, and also submit them to the General, and 
the responses will be part of the record.
    Mr. Ose. Thank you.
    Mr. Mica. I am pleased to recognize the gentleman from 
Maryland, my former ranking member who I miss tremendously on 
the Civil Service Subcommittee, Mr. Cummings from Maryland.
    Mr. Cummings. I was just floored by your statement, Mr. 
Chairman. I miss you, too.
    Thank you, Mr. Chairman.
    General, I first of all want to thank you for all you are 
doing to address this problem--and it is a major problem. And I 
just have a few questions.
    Yesterday, Mayor Guiliani came before the subcommittee and 
criticized the use of methadone as a long-term solution to 
heroin addiction. I just want to know what your view is on that 
and what you think of methadone maintenance therapy.
    And I want to--I mean, in my discussions with addicts that 
have recovered, I must tell you that most of them have a 
problem with methadone. They pretty much agree with the mayor. 
They feel as if it is just transferring to another drug.
    I was just wondering what your feelings are on that, and 
whether or not there are any other drugs on the horizon that 
might be able to address the problem. I just want to know where 
you stand on that right now.
    General McCaffrey. Mr. Congressman, the problem of heroin 
addiction is a pretty tough one. The number we now believe is 
accurate--there are probably 810,000 of us addicted to heroin, 
and they, indeed, cause more damage to American society, 
arguably, than any other group. They do not flame out and die 
younger, as violently as the crack cocaine or methamphetamine 
compulsive users, but it is just a disease. They live on until 
their 50's, and they steal $60,000 a year and commit literally 
hundreds of felonies, and they cannot help themselves, and they 
are in misery. They get HIV. They cost us a quarter of a 
million dollars a head when they go HIV positive. They are a 
disaster.
    A lot of them are not in treatment. The capacity to deal 
with them has been limited. It is clearly the viewpoint of the 
Attorney General, Secretary Shalala, and I that you have got 
to--and they flow through the criminal justice system. They end 
up clearly behind bars. And at that point we have got to get 
them, if we have not got them early, and get them into 
treatment, stabilize them.
    One important tool available to treatment is methadone and 
LAM, LAM just being a longer-acting variant of methadone. There 
are about 175,000 heroin addicts that are involved in about 900 
nationwide clinics.
    Some States have no methadone maintenance at all. Other 
States prescribe dosage rates by law. Other States do not 
supervise it very well. And so you end up with just methadone. 
There is no assessment. I am a 16-year-old, I am a 30-year-old, 
I have reported into the clinic as a heroin addict, I am now 
under methadone maintenance, when, in fact, perhaps I should 
not be. Perhaps I should have gone to therapeutic communities 
and an abstinence-based treatment modality.
    So we have got to, it seems to me, have a broad-gauged 
approach. We do have to make methadone available, though, to 
that community. When people are on methadone, they use less 
drugs, commit less crimes, and work more, and in some cases it 
is dramatic ability to sustain this behavior for a good period 
of time.
    I also am very uncomfortable when I hear people talk about 
substituting one addiction for another. I think, both 
clinically and practically, that does not help. Clinically, it 
is incorrect. You do not substitute a heroin addiction. You are 
using a compound that, although it is addictive, allows you to 
function not in euphoric state, not stoned, dazed, incapable of 
relating to people you love or the work force. It is quite a 
different product.
    Now, I would also argue, you know--and I personalize it. I 
have a dear friend who is a very impressive artist. He is a 
sculptor, a painter. He is in recovery from severe alcoholism. 
He is clinically depressed. He is using Prozac. And those of us 
who admire his work and appreciate him as a friend are grateful 
that Prozac exists and that he is able to use it and function.
    And so if you ask me do I hope he gets off Prozac, I am not 
sure I would see that as the right question to ask me. I think 
in a theoretical sense I would say, yes, probably. But I am 
more grateful that each week he goes to work and he is living 
at home.
    And I feel the same way about methadone and LAM. It is a 
tool that physicians should use where appropriate, as part of a 
total package of therapeutic care, of social services, and of 
linkages to the criminal justice system.
    Mr. Cummings. I could go on with that, but I hear you, but 
we will talk about that some other time.
    You probably talked about this, but what are we doing with 
regard to treatment beyond methadone? What are we doing?
    General McCaffrey. Well, NIDA and SAMHSA have put out some 
pretty decent products. There now is scientific basis to 
understanding various treatment protocols. It is in writing. If 
you are the administrator of a plan and you look at the 
scientific studies that are done, you should be able to 
replicate, if you follow those guidelines, treatment 
methodologies that do work.
    That was a study I put up. These are thousands of people. 
In my view, it is inarguable, from a policy perspective, that 
treatment will pay off. We do not have enough of it. Though I 
have carefully not used the word ``treatment on demand,'' it is 
clear, if you are a heroin addict in Baltimore and you are 
waiting for a slot in treatment, you hit bottom, you are under 
arrest, and if you do not put me in treatment during that 
timeframe and tell me to come back in 90 days you do not 
understand the nature of addiction.
    So we do need to get our capacity where it can deliver 
services for mayors and county executives and hospitals and 
drug treatment providers. We have done better. We have got more 
funding going into it. The number is so soft I almost hesitate 
to use it. I say we have eliminated a 300,000 addict piece of 
the gap, but we essentially have still got half the people who 
are compulsively addicted cannot get access to treatment.
    If you are a doctor and you go to the Talbot Marsh Clinic, 
a year after treatment there is a 93 percent chance you will 
not be using drugs. If you are an adolescent and you can afford 
$14,000 for 28 days in the Hazelton Institute, where I would 
send my kid if they were compulsive drug users, the chances are 
excellent, if you go from that 28-day program to NA, AA 
attendance and follow-on community care, you will be drug free. 
That is what we need to provide.
    Mr. Cummings. Before my time runs out, the reports that you 
just mentioned--you know, in Maryland one of the things that we 
have been looking at is trying to figure out what is effective 
treatment. There is a difference. I think we have got some 
folks who are not being effective. I think they know they are 
not being effective. And I think the addict comes out worse 
off.
    And so I think what we are trying to do--as a matter of 
fact, the Lieutenant Governor and yours truly are going to be 
holding some hearings with former addicts, 10 years clean, to 
talk about what works and what does not work, because a lot of 
the former addicts are very concerned about whether money is 
being wasted in certain types of treatment.
    So I assume the reports that you just referred to analyze 
treatment, various types of treatment, and what is effective 
and what is not; is that right?
    General McCaffrey. Although, again, there are gaps in it--
we are doing a lot of research right now on methamphetamine 
addiction--there is really nothing published, per se, right 
now. They are using the same treatment protocol that they do 
for cocaine addiction. And I am not sure that we are going to 
get there until we have some therapeutic tools, medical tools 
to use on cocaine products, for example. So there is a lot of 
research where I hope 5 years from now we can give doctors a 
way to stabilize those addicted to cocaine.
    Catalytic enzyme blockers out of Columbia University, Johns 
Hopkins has some research going on--we lack some tools for the 
treatment community.
    Mr. Cummings. Thank you.
    Mr. Mica. I thank the gentleman.
    I am now pleased to recognize the gentleman from Arkansas, 
Mr. Hutchinson.
    Mr. Hutchinson. Thank you, Mr. Chairman.
    General, I know you are growing weary, so I will try to be 
brief, but I did want to followup on some questions.
    I was reading your testimony, and there were some 
statements on page 3 about drug availability. You do not need 
to turn there, but your testimony indicates that in 1992 the 
drug availability of cocaine was 529 metric tons. In 1997, this 
has been reduced to 289 metric tons but you make the 
statement--and that is almost a one-half decrease in the 
availability of cocaine since 1992--that in the 1980's it was 
even lower. And you go ahead and talk about the prices that are 
significantly lower now than in 1981. We had, I assume, 
interdicted, or we had done something right that would raise 
the price on the streets.
    My question to you is: that appears to me to be a drastic 
difference in cocaine from the present back to the 1980's. Was 
there something that we were doing right then that we are not 
doing now? How do you explain the difference in regard to that 
and what appears to me some statistical indications of growing 
success in the 1980's that suffered a lapse in the 1990's and 
we are trying to regain territory, but what is your analysis of 
that?
    General McCaffrey. I have some wonderful support out of the 
Defense Intelligence Agency over cocaine trafficking flows, and 
the CIA has a wonderful officer over there with a substantial 
amount of manpower.
    We spent the last 3 years where now maybe our reporting is 
consistent and they match up in that the drug production of 
cocaine matches what we claim is moving, and then matches what 
the DEA and others report is arriving. I am still enormously 
suspect of my own data.
    The only thing I am sure of is we have got a very good 
handle on coca production hectarage, and then we go in and do 
crop samples, and we know the alkaloid content. So we have got 
a good idea on what is being made, and we follow the rest of it 
pretty closely.
    Mr. Hutchinson. My question, though, is the contrast 
between the 1990's and the 1980's. Now, if I am understanding 
you right, there is a statistical variation and there is not 
any difference in the level of success, but I think that is 
contrary to the overall statistics, particularly the poll 
numbers on the use and experimentation of drugs by minors.
    So are you saying there is not any difference? That we did 
not slide from the 1980's?
    General McCaffrey. Well, let me tell you, for 8 years 
cocaine production went up, went down, did not vary by much. It 
was between 700 and 800 metric tons a year for 7 or 8 years. It 
did not change any. And the amount of drugs coming to the 
United States grossly exceeded the demand.
    In the last 10 years, that demand, in terms of the number 
of us who casually use cocaine, has gone down enormously. The 
number we use is 6 million down to 1.3 million, the numbers who 
casually use cocaine. There is another 6.3 million of us who 
are compulsive cocaine users, and we consume most of the 
cocaine in America.
    Supply still grossly exceeds demand. Demand is going down. 
The drugs are, therefore, by simple economic law, you would 
expect purity is up, cost is down. There is no shortage of 
cocaine products anywhere in America, even though the supply 
now is also going down.
    We actually, for the first time in modern history, have a 
dramatic reduction in tons of cocaine produced in the Andean 
Ridge. But if you are a police officer or a hospital emergency 
room physician, it is hard for you to believe that because the 
population that is addicted is older and sicker and as 
dangerous as ever.
    Simply put, supply grossly exceeds demand. It did in 1982, 
it does today, and there are less of us fooling around with 
cocaine today than there were 10 years ago.
    Now, I would bet when we come back here in 5 years, you are 
going to find cocaine use has continued to go down and 
compulsive drug users will go into treatment----
    Mr. Hutchinson. One of the objects is to make the price 
higher so that it is less available to teenagers.
    General McCaffrey. In my view, not doable. What is doable 
is to make it less available. The casual cocaine user will 
respond to availability. I agree. The chronic addict will not.
    Mr. Hutchinson. Let me just ask a couple questions before 
my time runs out. I thank you for your comments. And these are 
sort of unrelated questions.
    In reference to mandatory minimum sentences, in your 
opinion, has the imposition of mandatory minimum sentences been 
helpful to our country in making strides in the war against 
drugs?
    General McCaffrey. I am basically an engineer and a systems 
analyst, and, from a systems perspective, in general, it has 
not been helpful, because we are spending more money locking 
people up who have compulsive drug using problems, $36 billion, 
than the payoff we would get from investing some money in 
prison-based drug treatment and had sentences where I go behind 
bars for a year, I am in treatment, I am out with a suspended 
sentence hanging over my head.
    And so I would argue the drug court system on the front end 
of it and the break-the-cycle program, which is in this 2000 
budget, again, on the prison piece of it, is the way to go 
about dealing with compulsive drug users.
    At one extreme, you would have the kind of notion, the 
Rockefeller laws, that, as I look at them, they also--they are 
not dealing with compulsive drug users, by and large. They are 
trying to deter young men from selling drugs for enormous 
profits through exaggerated sentences. So I do not think they 
work.
    Mr. Hutchinson. Thank you.
    Do you believe that the drug war is winnable?
    General McCaffrey. I do not like to call it a war. I call 
it a cancer. I think we can reduce the rates of drug abuse in 
America dramatically in the coming years. Yes, I do.
    Mr. Hutchinson. That really sounds like a defeatist's 
attitude. That distresses me. I know that terminology was used 
before, but I was just with some gentlemen in the anteroom and 
they referred to a quote that was attributed to you that you 
did not believe the drug war was winnable. That just seems to 
me really the wrong message. So I would urge your office--I 
mean, you have got to be the cheerleader, you have got to be 
optimistic. We have to have hope in America. That just really 
is troublesome to me to term it as a cancer. I believe that we 
can win this. I believe that law enforcement has that 
commitment, and we are undercutting them when we do not have 
that message.
    Thank you, Mr. Chairman.
    General McCaffrey. Well, let me, if I can, say I have great 
respect for your opinion on this. I am not a cheerleader. I 
never have been. I am trying to produce results. And I do 
believe--again, let me underscore a very optimistic message. 
The message is, in 15 years we have brought drug abuse in 
America down by 50 percent, cocaine use by 70 percent. We have 
got a big problem out there in our children. They are using 
drugs again. We never adequately got the addict population 
under control, which means treatment and coercive pressure.
    If we do those things, in 5 or 10 years when we are talking 
about this issue, drug use will go from 6 percent of our 
population to well below 3 percent. America will be happier, 
safer, and have less crime on the streets.
    Now, if you ask me the question: will there be a total 
victory akin to the Gulf war attack, the answer is no. But you 
should not be discouraged about that. I think we need to 
understand the nature of the dilemma we face and stay at it.
    I am all for vigorous law enforcement, and I am also an 
optimist.
    Mr. Mica. Thank you. I would like to yield for a couple of 
final questions to Mr. Barr.
    Mr. Barr. Thank you, Mr. Chairman.
    General, one of the many problems that is brought to my 
attention back in the District, in talking with some of our 
local government officials, as well as our Federal and State 
and local law enforcement officials, is illegal aliens. I know 
the problem is not unique to the 7th District of Georgia, but 
it is a serious one in our District.
    Recently, we have heard and I have heard also from INS 
personnel that out in the field, down in Atlanta and other 
parts around the country, the enforcement effort is not only 
not being increased, which it ought to be, pursuant to 
congressional mandate--we have vastly expanded the number of 
dollars authorized and appropriated to INS for enforcement in 
our communities, in our regions, in our Districts, yet, not 
only apparently--and I have seen the figures on this to 
substantiate it and the memos on it that reflect it--are some 
of those Districts not seeing any increases, the money is not 
getting down there. They are being directed to cut back their 
enforcement effort, and this is having a very profound effect 
on local law enforcement, who have always looked to the 
assistance of INS to be able to keep and deport illegal aliens.
    The particular problem right now is methamphetamines in the 
illegal Mexican communities in our area.
    We also understand that the INS Director is indicating that 
INS will start releasing aliens, including those who are 
charged with drug offenses.
    Do you see this problem? And is there any assistance you 
can be, as the Director of ONDCP, in this regard?
    General McCaffrey. Well, I do not know the specifics, Mr. 
Congressman, of the decrease in budget you have commented on. I 
will find out and respond to your question. Nor do I believe 
directly that the illegal aliens, for example, crossing the 
southwest border represent a significant component of drug 
smuggling. The drugs essentially come in in 18-wheeler trucks 
and fast boats out of Colombia and rail cars and welded in the 
compartments in vehicles, along with every other way--
backpacking across the border, mule trains, the goofiest ways 
imaginable. But, by and large, it is not illegal migrants who 
carry drugs.
    Having said that, they are a tremendous component of local 
drug-related crime in some midwestern communities, and so they 
are a problem--and we have substantially increased funding for 
law enforcement. There is clearly more money in there, perhaps 
inadequate. We need to listen very carefully to your own ideas 
on it.
    I will make sure I will go look at the deportation 
statistics on drug-related crime. I hope we never release 
anybody drug related.
    Mr. Barr. But we know that Doris Meissner is proposing 
that. Does it make any sense, from a policy standpoint--and 
that is really your role as, essentially, the implementer of 
national drug control policy and the coordinator thereof, and 
INS is a part of that. Does it make any sense to you to say, 
``OK, Congress, reflecting the will of the people of this 
country to crack down on illegal drug usage, including by 
illegal aliens--'' I am not talking primarily border 
interdiction. That effort is moving forward and is paying some 
results, some positive results. But in the interior of the 
country, Congress has appropriated substantial increases in 
moneys over the last few years for the interior enforcement 
effort by INS, and one of the components of that is for INS to 
assist other Federal agencies and local agencies in getting 
illegal aliens who are using the drugs and engaging in 
methamphetamine traffic, or whatever, off the streets, not in 
putting them back on the streets.
    Does it make sense, given the fact that our Government, 
through Congress, and laws and appropriations bills signed by 
the President, has directed that more money go to that effort, 
to see memos to INS regional and district directors telling 
them, ``Not only are you not getting any more money; you are to 
cut back overtime, you are to cut back travel, you are to cut 
back positions, you are to cut back cell phone usage.'' Does 
that make any sense? Does that seem consistent with our drug 
control policy and with congressional mandate?
    General McCaffrey. Well, I will take your words and go find 
out what the situation is and do something about it.
    Mr. Barr. Let us say hypothetically that I am correct.
    General McCaffrey. I do not want to answer a hypothetical 
question. Let us go find out what the situation is.
    Mr. Barr. General, it is not a hypothetical.
    General McCaffrey. Mr. Congressman, I have got your point. 
I will look into it and give you an answer.
    Mr. Barr. Thank you, because it is apparently a fairly 
serious problem.
    Just a couple of other quick points.
    With regard to tobacco, I agree it is bad for kids to smoke 
tobacco. I am somewhat intrigued by the section on the youth 
tobacco initiative. Apparently, the CDC is distinguishing 
itself in assisting in the tobacco initiative.
    I would be interested if you could get me the figures on 
what the CDC is doing with regard to the terrors of tobacco 
versus the CDC involvement in and resources directed to illicit 
drugs. I would really be interested to see those areas in which 
it is active in the tobacco initiative, because apparently they 
are very active in that, contrasted with their involvement in 
what I think probably all of us here agree is the more serious 
problem of illicit drug usage.
    General McCaffrey. I think almost all of our Nation's 
funding on any illegal drug program is in NIDA, and NIDA's 
budget has increased substantially in the last 3 years, so I 
think that will be the answer, Mr. Barr, that CDC does a lot of 
things--youth violence, youth tobacco, that kind of thing.
    Mr. Barr. Right.
    General McCaffrey. But when it comes to drug-related abuse 
problems, it is NIDA funding. And Dr. Leshner has tremendous 
support out of Congress.
    Mr. Barr. OK. Finally--and I think this is something that 
the chairman is interested in, also, in terms of the targets, 
the hard targets in last year's ONDCP drug reauthorization 
bill, could you just briefly describe how you are going to meet 
the current and former Speakers--Speakers Gingrich and Hastert 
now are very, very concerned and, as you know, very active in 
setting targets that can be met and that will be met, 
hopefully, with regard to the drug war.
    How are you going to meet those targets, the hard targets 
set by both former Speaker Gingrich as well as Speaker Hastert 
over the next 5 years?
    General McCaffrey. Well, this is one of the areas where 
arguably we have made the most progress. We do have some 
extremely well-researched and, we believe, achievable goals set 
out in the PMEs. There are numbers there, IOU annual targets, 
and I have required the administration's 50-some-odd agencies 
to tie their budget to those targets.
    Now, in addition, the Speaker and others have added 
congressionally mandated viewpoints, which we have cranked into 
the drug strategy. It is there. It is a target. Those targets 
Congress will use as a measurement against the funding that we 
request, and that it is your viewpoint that the funding is 
inadequate to achieve the congressionally mandated targets, 
then presumably you are going to change our budgets.
    So I think we look forward to working in cooperation with 
Congress and seeing what your own ideas are. If there are 
substantial increased resources required to hit those 
congressional targets, then I welcome your own involvement and 
advice.
    Mr. Barr. Would you submit to us a plan to meet those 
targets and that plan representing a 5-year? What would you 
need to meet those targets within 5 years? That seems to me the 
starting point for us to make a determination what resources to 
provide you should be, 5-year targets.
    Now, you have made current projections, and the targets you 
all are using may be 10-year, but would you provide us what 
resources you need, along with a plan, to meet targets by 5 
years?
    If you can--I cannot speak, obviously, for all Members of 
Congress, but I think you would find considerable support in 
the Congress for meeting your needs if you can put together, 
obviously, what would have to be a very vigorous, very 
proactive, very aggressive campaign to meet those targets 
within 5 years.
    Will you do that for us?
    General McCaffrey. Let me say----
    Mr. Barr. And we will take that to the Speaker and work 
that as a top-priority issue this year.
    General McCaffrey. Mr. Barr, let me invite a continuing 
frank dialog on this.
    We have got a 5-year budget on the table. That will be the 
administration position. And I would add that it can benefit 
from congressional debate.
    Having said that, the budget has gone up 32 percent per 
year in the 4 budget years I have been involved in this. There 
are enormous resources flowing into this across the board, and 
I plan on continuing to be adamant with the administration to 
provide increased funding, which, fortunately, I got again in 
fiscal year 2000.
    Now, I do not believe it is logical to conclude that there 
will be a separate budget submitted for congressionally 
mandated guidelines. The budget on the table is the 
administration position.
    Mr. Barr. OMB is not terribly supportive of it, I do not 
believe.
    General McCaffrey. Well, now, again, I came out of there 
with some substantial increase in funding over what I got last 
year from them.
    Mr. Barr. Right. But below what you requested.
    General McCaffrey. It was 32 percent per year over 4 budget 
years, so----
    Mr. Barr. I understand, but----
    General McCaffrey [continuing]. I am hard-pressed----
    Mr. Barr [continuing]. But it was below what you requested?
    General McCaffrey. Sure. I can give you those figures. 
Again, because I certified the agency budgets, we certified----
    Mr. Barr. I would appreciate it if you would send us those 
figures.
    Again, the administration may have a particular policy and 
that policy may be oriented toward a 10-year meeting of 
targets. What we are asking for--and I cannot speak for the 
chairman. He can speak for himself, and he may want to weigh 
in--is for you to furnish us--and this is not contradictory or 
antagonistic to any policy of the administration--we would like 
to see what you believe would be necessary to meet specific 
hard targets over a 5-year period as opposed to a 10-year 
period.
    General McCaffrey. That is on the table. We absolutely have 
submitted--you have now available the budget and the numbers to 
go with targets in 5 years. You got that in the PMAs.
    Mr. Barr. The targets, for example, as set forth on page 
44, that is what I am talking about.
    General McCaffrey. There are congressional targets that do 
not match up with the PMA targets that are on the table. I have 
developed----
    Mr. Barr. We want to see them matched there. That is what 
we would like to see. Will you send us your assessment of that? 
Will you submit that to us?
    General McCaffrey. Well, in terms of developing another 5-
year budget, no. You have on the table the OMB position over 
the coming 5 years to achieve those targets.
    Mr. Barr. We are not terribly interested right now in OMB's 
position. We are interested in the position of the Director of 
the Office of National Drug Control Policy.
    General McCaffrey. I understand, and what I----
    Mr. Barr. Which I much prefer.
    General McCaffrey. I am standing behind the OMB position.
    Mr. Barr. You may do that, but would you be responsive to a 
specific congressional request, regardless of what OMB may 
eventually do with it? They may say, ``This is terrible.'' That 
is fine. That is OMB position. But we would like to have hard 
targets, those reflected on page 44 of your report, matched up 
against a 5-year calendar.
    General McCaffrey. There is a 5-year calendar, again, hard 
targets.
    Mr. Barr. And what you would need to meet those.
    General McCaffrey. Again, Mr. Barr, I do not believe that 
it is logical to assume that I am going to produce another 
different 5-year budget to achieve a separate set of goals. The 
5-year budget on the table is actually our position.
    Mr. Barr. And you can send that up to us and say you do not 
like this, but we would like to see your best judgment on how 
to meet these targets within 5 years.
    General McCaffrey. Yes. Well, I hear your concern and I 
look forward to learning from the staff or from the principals 
your own viewpoints on whether you believe the budget that was 
submitted adequately responds to your own concerns. I have 
great respect for your opinion.
    Mr. Barr. Are you saying that you will not submit----
    General McCaffrey. Correct. There will not be----
    Mr. Barr [continuing]. A response to the request we just 
made?
    General McCaffrey [continuing]. A different 5-year budget 
than the one that is on the table. That is it. I would be 
welcome to let you see the evolution of our thinking internally 
in the government. That is certainly legitimate.
    But, again, I would be cautious about some notion of 
arbitrarily being able to match resources with self-mandated 
targets. I am very uncomfortable----
    Mr. Barr. Any targets in a theoretical sense are going to 
be somewhat arbitrary. We are projecting----
    General McCaffrey. No. Ours are not arbitrary.
    Mr. Barr. They may not happen.
    General McCaffrey. Yes. The ones I have developed were a 2-
year process----
    Mr. Barr. Every target is, to some extent, arbitrary except 
yours. That is fine. All I am saying is: why would you not be 
able to be responsive to a request which I am making and which 
the chairman may make to give us your best judgment of how to 
meet the Speaker's targets over 5 years and what would you need 
to meet that?
    General McCaffrey. Yes. Well, I think----
    Mr. Barr. Let me just ask this question. If you had the 
opportunity and the resources to meet goals in 10 years as 
opposed to 5 years, why would you choose 10 years?
    General McCaffrey. Of course we would not. But what we need 
to do is----
    Mr. Barr. Then why cannot you give us your best judgment in 
writing as to how we could meet those in 5 years?
    General McCaffrey. Well, Mr. Congressman----
    Mr. Barr. And then we can take that and----
    General McCaffrey. Let me give you an answer to the 
question. The answer to the question is there are nine 
appropriations bills dealing with 50-some odd agencies of 
Government. And when you are talking about machinery, people, 
optempo, and dollars, and creating capacity in treatment and 
prevention programs involving 52 million kids, 900,000 cops, 
hundreds of thousands of people in the Armed Forces, I am not 
going to make it up on the back-of-the-envelope analysis.
    Mr. Barr. I do not want an----
    General McCaffrey. Let me finish the response. You asked 
the question. I will have to lead the governmental process to 
give you prudent, well-thought-out solutions that I think are 
achievable, and that is what you have got in front of you.
    Mr. Barr. Do you think meeting these targets in 5 years is 
not achievable?
    General McCaffrey. The ones that Congress mandated, many of 
them are not achievable.
    Mr. Barr. In 5 years?
    General McCaffrey. Right.
    Mr. Barr. What we would like to do is help you make them 
achievable. You have a Speaker, Denny Hastert, who is extremely 
interested----
    General McCaffrey. Sure.
    Mr. Barr [continuing]. And believes that they are 
reachable, and is willing, I believe, to work very closely with 
you and the administration in making them achievable.
    General McCaffrey. Yes.
    Mr. Barr. But if we go into this and you are saying they 
are not achievable and we are not even interested in working 
with the Congress to try to make them achievable, then maybe we 
have a problem. I would hope we would not.
    Mr. Mica. If I may, I am going to interrupt. I did promise 
the General that we would get him out around 1. He has another 
obligation. And I do want to try to conclude the hearing.
    First of all, I would like to ask unanimous consent to 
submit to the general questions from Mr. Blagojevich and also 
have your responses made part of the record.
    Without objection, so ordered.
    I have a statement for the record, which we will submit 
without objection from Mr. Gilman, chairman of the 
International Relations Committee.
    [The prepared statement of Hon. Benjamin A. Gilman 
follows:]
[GRAPHIC] [TIFF OMITTED] T2537.077

[GRAPHIC] [TIFF OMITTED] T2537.078

    Mr. Mica. We will also, without objection, leave the record 
open from this hearing for a period of 2 weeks for additional 
comments.
    General McCaffrey, we appreciate your coming with us today. 
As we conclude, I have a couple of immediate concerns.
    First of all, we know where the heroin is coming from. You 
talked a lot about cocaine. It has really been supplanted with 
heroin and meth and designer drugs, and we know where this 
stuff is all coming from.
    We were in Colombia, and we found that some of the funds 
were diverted because of their natural disaster. We might want 
to get something in the supplemental, and we would like your 
assistance in seeing that Colombia, which is the source of a 
lot of these hard narcotics coming into the country and through 
Mexico, that we address that.
    Also, the ranking member has asked that we have an 
additional closed hearing or a closed briefing session, which I 
have agreed to. We will try to do that in the next 2 weeks. I 
think next week we are occupied. But, according to your 
schedule--and we will have some of the other folks in--maybe we 
can discuss the issues that Mr. Barr has raised about trying to 
speed up and adequately fund--if it takes another supplemental, 
whatever it will take.
    There are still some unanswered questions relating to the 
organization and disorganization on the southwest border, the 
Mexican question, the question of Panama, and what we are doing 
as far as relocating our forward reconnaissance efforts in the 
drug war, so I think there are a whole bunch of areas that we 
need to work on, plus the big problem of Mexico and its 
possible decertification or how we get that situation under 
control.
    So we will reconvene in a closed session at a date mutually 
acceptable in the next couple of weeks here to help resolve 
some of these, and also develop, in a cooperative fashion, a 
strategy and a finance plan to make these things happen on a 
sooner rather than later basis, if that is acceptable.
    General McCaffrey. I will look forward to that. Thank you.
    Mr. Mica. There being no further business--Mr. Ose, you did 
not have any comments----
    Mr. Ose. No, Sir.
    Mr. Mica. There being no further business to come before 
this subcommittee, this meeting is adjourned. Thank you.
    [Whereupon, at 1:10 p.m., the subcommittee was adjourned, 
to reconvene at the call of the Chair.]
    [Additional information submitted for the hearing record 
follows:]
[GRAPHIC] [TIFF OMITTED] T2537.079

[GRAPHIC] [TIFF OMITTED] T2537.080

[GRAPHIC] [TIFF OMITTED] T2537.082

[GRAPHIC] [TIFF OMITTED] T2537.083

[GRAPHIC] [TIFF OMITTED] T2537.084

[GRAPHIC] [TIFF OMITTED] T2537.085

[GRAPHIC] [TIFF OMITTED] T2537.086

[GRAPHIC] [TIFF OMITTED] T2537.087

</pre></body></html>
